<html>
<title> - THE BROKEN PROMISES OF CHINA'S WTO ACCESSION: REPRIORITIZING HUMAN RIGHTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







  THE BROKEN PROMISES OF CHINA'S WTO ACCESSION: REPRIORITIZING HUMAN 
                                 RIGHTS
=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2017

                               __________

 Printed for the use of the Congressional-Executive Commission on China













[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












         Available via the World Wide Web: http://www.cecc.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-543 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House

MARCO RUBIO, Florida, Chairman       CHRIS SMITH, New Jersey, 
TOM COTTON, Arkansas                 Cochairman
STEVE DAINES, Montana                ROBERT PITTENGER, North Carolina
JAMES LANKFORD, Oklahoma             TRENT FRANKS, Arizona
TODD YOUNG, Indiana                  RANDY HULTGREN, Illinois
DIANNE FEINSTEIN, California         MARCY KAPTUR, Ohio
JEFF MERKLEY, Oregon                 TIM WALZ, Minnesota
GARY PETERS, Michigan                TED LIEU, California
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                    Elyse B. Anderson, Staff Director

                  Paul B. Protic, Deputy Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Pelosi, Hon. Nancy, a U.S. Representative From California; House 
  Minority Leader................................................     1
Wolf, Hon. Frank R., a former U.S. Representative (Retired) From 
  Virginia.......................................................     4
Statement of Hon. Gary Peters, a U.S. Senator From Michigan......     7
Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
  Chairman, Congressional-Executive Commission on China..........     9
Wessel, Michael R., President, The Wessel Group; Commissioner, 
  U.S.-China Economic and Security Review Commission.............    16
Mann, James, Johns Hopkins School of Advanced International 
  Studies (SAIS) and author of ``The China Fantasy'' and other 
  books on China and U.S. foreign policy.........................    18
Gillis, Jeff, husband of American businesswoman Sandy Phan-
  Gillis, detained in China for the past two years...............    20
Richardson, Sophie, China Director, Human Rights Watch...........    23
Statement of Hon. Al Green, a U.S. Representative From Texas.....    26

                                APPENDIX
                          Prepared Statements

Wolf, Frank R....................................................    36
Wessel, Michael R................................................    38
Mann, James......................................................    43
Gillis, Jeff.....................................................    45
Richardson, Sophie...............................................    49

Rubio, Hon. Marco, a U.S. Senator From Florida; Chairman, 
  Congressional-Executive Commission on China....................    51
Smith, Hon. Christopher, a U.S. Representative From New Jersey; 
  Cochairman, Congressional-Executive Commission on China........    53

                       Submissions for the Record

Op-ed from the Washington Post titled, ``Will China Soon Control 
  American Movies? '' by Frank Wolf, dated September 15, 2016....    55
H. Res. 153, Expressing concern over the detainment of Sandy 
  Phan-Gillis, and for other purposes, submitted by 
  Representative Al Green........................................    57
Statement submitted for the Record titled ``China Being Granted 
  PNTR and Entering the WTO Has Caused a Human Rights Disaster,'' 
  by Wei Jingsheng...............................................    61

Witness Biographies..............................................    64

 
  THE BROKEN PROMISES OF CHINA'S WTO ACCESSION: REPRIORITIZING HUMAN 
                                 RIGHTS

                              ----------                              


                        WEDNESDAY, MARCH 1, 2017

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:08 p.m., 
in room 216, Hart Senate Office Building, Senator Marco Rubio, 
Chairman, presiding.
    Also present: Senators Todd Young and Gary Peters; and 
Representative Al Green.
    Chairman Rubio. Good morning. This is a hearing of the 
Congressional-Executive Commission on China, and the title of 
this hearing is ``The Broken Promises of China's WTO Accession: 
Reprioritizing Human Rights.''
    We will have two panels testifying today. The House is 
currently in votes so I am going to skip my opening comments 
and welcome our first panel, the House Democratic Leader Nancy 
Pelosi, and former Member of Congress, Frank Wolf.
    Leader Pelosi you're recognized. Thank you for being here.

  STATEMENT OF HON. NANCY PELOSI, A U.S. REPRESENTATIVE FROM 
               CALIFORNIA; HOUSE MINORITY LEADER

    Leader Pelosi. Thank you very much, Senator, for your 
leadership and your attention to this very important issue. 
We're very proud of your participation, those of us who have 
been involved in this issue for a very long time.
    I did not mean for you to skip yours if you'd like to go 
first.
    Chairman Rubio. No, we have plenty of time.
    Leader Pelosi.  Okay. Thank you.
    Well, it is an honor to be here with you, with our 
distinguished guests, and with, of course, Congressman Frank 
Wolf, a true patriot, a champion for human rights in the world. 
He took risks, he was persistent, he was dissatisfied, and he 
was our champion, and still is.
    It's my privilege to join you in confronting the broken 
promise of China's World Trade Organization [WTO] accession. 
You know the background of this Commission so I won't go into 
it, except to say that when there was the normalization of 
trade relations with China we knew what was at stake: freedom 
and prosperity at home and in communities in China.
    So the Commission was formed after that to monitor human 
rights and the development of the rule of law in China, etc. 
Actually, Congressman Wolf and I were commissioners at the 
offset.
    But let me just say this, because broken promises is the 
theme. Right from the start at the time of Tiananmen Square, 
some of us came together and said, what leverage could we use 
to get the young people arrested at the time of Tiananmen 
Square freed, what could we do to use our leverage that we had 
with the U.S. trade deficit to free those prisoners, to stop 
the proliferation of missile technology to Pakistan, which the 
Chinese were doing, and also to gain access to China's market. 
We thought, we have a $5 billion annual trade deficit, we 
really had tremendous leverage.
    We worked very hard to stop the passage of the most-
favored-nation [MFN] status for China, as it was then called. 
Mr. Wolf, at considerable risk to himself and to others, 
visited prisoners over and over again, brought home a record 
for us of prison labor products that we could demonstrate 
clearly that China was exporting to the United States to make a 
case to the President of the United States, then President Bill 
Clinton, that China should not--at the very least shouldn't 
have most-favored-nation status, but they also--there could be 
some penalty. We said, treat these people like you would treat 
intellectual property. You would do some tariff adjustment on 
intellectual property; treat intellectuals and people the same 
way.
    Well, anyway, we failed. We passed the bill, House and 
Senate. President Clinton vetoed the bill. We couldn't override 
the veto in the Senate. We did pretty well all things 
considered, but we had been rejected by Democratic and 
Republican Presidents on this score, so our concern is 
bipartisan in terms of that.
    Senator, how are you?
    So at the time, though, my point is, at that time, right in 
the early 1990s, the trade deficit was $5 billion a year and we 
thought we had tremendous leverage, right? So they said to us, 
``Oh, you are all wrong, you have to let peaceful evolution 
take care of this, human rights will emerge,'' et cetera, and 
we will have access to China's market.
    Well, when we brought up the bill again, in order to defeat 
us, they changed the name from most-favored-nation status to 
normalization, or whatever they called it, but nonetheless, we 
still continued the fight.
    Well, a few years go by: nothing. The trade deficit 
continues to grow and grow and grow. Today, actually, rather 
than $5 billion a year, it is over $6 billion a week, almost a 
billion dollars a day. That's what peaceful evolution brought 
us and the coddling of China. Corporate America was in there, 
big. I still don't know if they're making a profit in China.
    But anyway, then comes along the WTO accession. We tried 
our best to present our values in terms of whether China should 
go there, and strictly in a business sense, what's in it for us 
in terms of access, fair trade, etc.
    I will just tell you this little anecdote. After they went 
into the WTO, which we tried to temper, a few years later when 
I was Speaker I visited China, was honored by the People's 
Congress, the President of the People's Congress, who is the 
second most important person in China.
    When he came to Washington, I reciprocated, not quite as 
elegantly as they did, not that many courses in the dinner, but 
that was the very day China was violating the WTO in terms of 
rubber exports to the United States. That very day was the 
announcement.
    So when he came to the Speaker's office and I was welcoming 
him I said I'm sorry to have to welcome you in a manner that is 
sort of a complaint, but China is not honoring WTO and I can't 
let the opportunity go by without telling you that. He said to 
me, as he conferred with his associates there, we were told 
when we joined the WTO that we did not have to honor that 
provision. I mean, who told you that? Well, the United States 
was trying to get them into the WTO. So in any event, as I say, 
we've gone from $5 billion a year to $6.2 billion a week 
because that was going to make matters better.
    China continued to proliferate missile technology, still 
has non-trade barriers to our products going to China, violates 
our intellectual property rights, and I will say one more 
thing, when we were complaining about the violating of 
intellectual property rights, the administration--that would be 
the Clinton Administration at the time--would say, ``Oh, they 
can't be accountable for what happens in the provinces.'' 
You've heard that, right?
    Well, one of the first provisions of the bill was that the 
Trade Office of the Chinese Government must stop using pirated 
Microsoft in its office. So this was not about what was going 
on out in the provinces, it was there.
    In any event, they have promised to do this, they have 
promised to do that: they have not done it. I think China is a 
very important country in the world. It's going to be 
successful and we rejoice in that success, but so much of it is 
at our expense. All that trade deficit going to China enabled 
them to have the foreign exchange that enabled them to buy into 
economies, buy political support in the rest of the world.
    We chose to ride a tiger and the tiger will decide when we 
get off, and it has curtailed the ability of America to talk 
about human rights in China because the corporate interests are 
so great. But I say if we do not--if we hesitate to speak out 
for human rights in China because of commercial interest, we 
lose all moral authority to speak out for human rights anyplace 
in the world.
    So this is about who we are as a Nation, our values, trade, 
our workers, political power, geo-political power on the part 
of the Chinese, at our expense and it was our decision to ride 
that tiger. That was during the Clinton Administration and it 
continued later.
    China has changed a great deal in the past 15 years, as you 
know, but the human rights situation has not improved that much 
and we are still racking up big deficits from time to time.
    So thank you to the Commission for looking into this 15 
years later, and I am once again honored to be here.
    Chris Smith, who will be joining us after the votes, and 
Frank Wolf, are two wonderful leaders. We worked in a 
bipartisan way, willing to criticize Presidents of our own 
party as well as the other party on the subject of human rights 
in China and the fact that we were not getting a fair deal on 
the trade side that they sold our moral authority for.
    With that, I thank you again. I thank Senator Peters for 
joining us today and his work on this Commission.
    Thank you, Senator Rubio.
    Chairman Rubio. Thank you. Thank you, Leader Pelosi.
    Congressman Wolf, welcome. We are glad to have you here.

 STATEMENT OF HON. FRANK R. WOLF, A FORMER U.S. REPRESENTATIVE 
                    (RETIRED) FROM VIRGINIA

    Mr. Wolf. Thank you, Senator. I want to begin by thanking 
Chairman Rubio and Cochairman Smith and members of the 
Congressional-Executive Commission on China for convening this 
very important hearing.
    I also want to recognize your outstanding staff: Elyse 
Anderson, Paul Protic, and Scott Flipse, who are some of the 
best staffers I have ever worked with up here.
    I also want to thank and recognize Minority Leader Pelosi, 
whom I'm pleased to join here today for her longstanding 
support for Chinese dissidents, the people of Tibet, and for 
her leadership during the annual debate surrounding most-
favored-nation trading status for China.
    We both vigorously opposed granting permanent normal trade 
relations [PNTR], then MFN, absent pre-conditions. I wish our 
concerns had not been borne out, but as today's hearing will no 
doubt explore, the proponents of this approach can hardly claim 
that China today is more free or less repressive than it was 15 
years ago.
    This is not, Senator, a partisan issue, as we demonstrated 
in our efforts in the late 1990s. Our country is stronger and 
the dissidents worldwide are bolstered when both parties, 
Republican and Democrat, and their leadership take the 
principal stand for human rights and religious freedom.
    Evidence continues to show that the government of China has 
leveraged the wealth and economic growth that accompanied WTO 
accession to become more corrupt, more repressive, and more 
dangerous than at any time in modern history.
    China has become increasingly belligerent and hostile in 
its actions in the Spratley Islands that disrupt peaceful 
navigation in the seas; has led a campaign of unprecedented 
cyberattacks against the U.S. Government, including Members of 
Congress; they stripped my computer and a number of other 
Members' computers. They took everything off of their 
computers, as well as American companies' computers.
    I see the list of the companies they were hitting that the 
Bureau would have, and every company was basically being hit. 
It is stunning how little we discussed the Chinese cyberattacks 
against OPM [Office of Personnel Management] just two years ago 
that led to the most sensitive information about millions of 
Americans and their families being compromised, or their 
attacks on U.S. healthcare records and airline travel records, 
or the theft of intellectual property that are literally 
bankrupting American companies and costing us jobs.
    The American people and the U.S. Government should be more 
outraged by these actions. Prior to the passage of PNTR in 
2000, there was much debate in Congress and the media as to 
whether granting such status would help China to become a more 
open and free society, leading to greater rights protections 
for its long-oppressed people and improvements in the law.
    It is interesting, in retrospect, that just 10 years after 
the world was shocked by the brutal crackdown against the 
Tiananmen Square protester, the young student, the tank man in 
front of the tank, a school of thought took root which argued 
for increased trade and economic ties as opposed to sanctions 
and a tough line. Wishful thinking superseded a genuine 
understanding of the Chinese Communist Party's goals and 
objectives.
    The state of freedoms in China today, after so many 
trillions of dollars in wealth has been transferred to the 
small ruling class that controls the production, is well 
summarized in the most recent report by the U.S. Commission on 
International Religious Freedom.
    They said ``During the past year the [Chinese] Government 
increased its targeting of human rights lawyers and dissidents, 
some of whom advocated for religious freedom or represented 
individuals of various beliefs . . . authorities across China 
undertook a sweeping dragnet, rounded up lawyers and human 
rights defenders, including religious freedom advocates, with 
nearly 300 arrested, detained, or disappeared.''
    They continued to see ``many of these individuals came 
under government suspicion precisely because they chose to 
represent politically undesirable religious groups, such as the 
Uighur Muslims or unregistered Christian leaders and members.'' 
Both the Catholic church and the Protestant church are being 
persecuted by the Chinese Government, and also the Falun Gong.
    I curiously glanced at headlines from the past few weeks 
and here's what the headlines say: ``Uyghurs Are Told to 
Confess Political Mistakes in Mass Meeting.'' Another headline: 
``Tibetan Pilgrims Barred from Kirti Monastery by Chinese 
Police.'' It's almost cultural genocide against the Tibetan 
people.
    Another headline: ``Christian Rights Lawyers Tortured''--
Tortured--``in China.'' Another one: ``Chinese Christians 
Persecuted by the Party's Nationalism.'' Or there's a 
Washington Post piece, which I'm sure all of you read, for 
January 21.
    It's painful to read, but the Chinese lawyer Li Chunfu, who 
was imprisoned in secret detention for 500 days, brutally 
tortured, and drugged, says he is being released and that he's 
been diagnosed with schizophrenia. He is not the same person. 
The ABA [American Bar Association] has spoken and others, but 
very few people are saying anything. This all was experienced 
when he was in prison, being held by the Chinese Government.
    The irony is that due to the great wealth, as Speaker 
Pelosi mentioned, the increased economic interconnectivity and 
international influence that China was able to achieve in the 
last 15 years, the United States has less leverage than it once 
did. However, it does not mean we can't and should not use 
every lever we have to address the egregious human rights 
violations.
    I want to close with some recommendations and actions that 
the Congress and administration can take this year to improve 
the situation.
    First, we need a more clear and unambiguous resolution to 
the statements from this Congress and the Trump Administration 
about our unwavering commitment to human rights, religious 
freedom, and the rule of law in China. Congress should 
immediately--immediately--take action to rename the plaza in 
front of the Chinese Embassy in honor of the imprisoned Nobel 
Peace Prize winner Liu Xiaobo. He is a Nobel Prize winner. He 
has been in jail for six years. We did this before when we were 
up against the Russians, Sakharov Plaza. Can you imagine, if 
you were Xiaobo and your wife came in and said, ``Xiaobo, the 
U.S. Congress just named the plaza in front of the embassy? '' 
I tell you, this would get their attention. I think this could 
be done very easily.
    The administration should also make full use of the new 
authorities granted under the Global Magnitsky Act to sanction 
and restrict the travel of Chinese Government officials 
perpetrating these egregious acts.
    In Gao Zhisheng's latest book, he has the names of who is 
torturing him. We know who's involved in some of these 
activities. Given the immense demands to eliminate U.S. foreign 
assistance dollars, the Congress and the administration should 
ensure that any asset seized under this law involving Chinese 
authorities is spent on human rights and religious freedom.
    Second, much more can be done to fight Chinese Internet 
censorships by putting pressure on agencies such as the 
Broadcasting Board of Governors [BBG] to increase the 
allocation of funds to the programs that would prioritize 
circumvention of the Internet firewall. Congress has urged the 
BBG--Republican and Democrat--to do this and yet they have not 
done it. I don't quite understand it. They have decreased the 
funding and now this could work in China, in Iran, in Cuba, in 
Vietnam, in Africa, all over the world. So if we are serious 
about fighting censorship, our budget should reflect it. The 
Chinese Government could not be more serious. They spend 
millions annually on fortifying the Chinese Internet firewall.
    We must remain vigilant against efforts by the Chinese 
Government and state-directed and -owned companies to take 
advantage of the open nature of the U.S. system to 
inappropriately lobby and shape public opinion such that human 
rights violations, censorship, and other terrible actions are 
effectively normalized or glossed over.
    Boy, the number of firms in this town that represent the 
Chinese Government. I mean, I don't know how you go home at 
night and look at your kids and read about Li Chunfu, and then 
say, I'm representing the Saudis who are doing radical 
Wahhabism, and I'm representing the Chinese who have Catholic 
bishops under house arrest, Protestant pastors, bringing back 
cultural genocide in Tibet.
    And by the way, they pay well. I always found in this town 
the more evil they are, the higher they pay, and they pay a 
very, very good salary. We have numerous examples, including a 
recent series of acquisitions of U.S. media companies, that 
would effectively make them subject to state censorship rules 
in Beijing.
    Last fall, I wrote an op-ed in the Washington Post where I 
detailed these concerns that advocated for an update to the 
Committee on Foreign Investment in the United States, CFIUS, to 
better address the types of transactions that impact 
cybersecurity, censor the financial services, and soft power.
    I will tell you, there will never be another movie, ``Seven 
Years in Tibet.'' If this thing is not dealt with now, then 
Richard Gere can end his political career because they will 
never have another movie for Richard Gere in China. There will 
never be a ``Seven Years in Tibet.'' They're beginning to 
change the very stories in the movies.
    I also wrote the need to bolster the Foreign Agents 
Registration Act, FARA, to ensure that Chinese-funded public 
opinion and advocacy group efforts in the United States are 
being appropriately monitored and reported. The Confucius 
societies in many of these universities, if they're going to do 
it and are allowed to do it, we ought to at least--the American 
people ought to know who they are. The Justice Department's 
Inspector General released a very important report last fall 
making recommendations on updates to the law including closing 
arrangement loopholes that governments like China use to avoid 
disclosing their funding.
    In closing, I want to thank you for the hearing. The U.S. 
Government made a critical error, I believe, in extending PNTR 
to China without real commitments and enforcement mechanisms on 
human rights and religious freedom. It is never, ever too late 
to redouble efforts.
    We can commit anew to using all the economic, diplomatic, 
and security tools at our disposal to send a clear signal that 
America remains committed to the fundamental principles laid 
out in their founding document, a document which former 
President Reagan, my favorite President--Reagan said the words 
in the Constitution and Declaration of Independence were 
covenant not only with the people in my hometown of Philly in 
1776 and 1787 when the Constitution--but a covenant with the 
tank man, a covenant with a Buddhist monk and nun, a covenant 
with a Catholic bishop, a covenant with Li Chunfu who has been 
tortured.
    So I believe that what you are doing here is very 
important. I believe we can reverse it. The American people are 
with us on this issue and I just hope this Commission can light 
a fire in this current Congress.
    Thanks for the hearing.
    [The prepared statement of Mr. Wolf appears in the 
appendix.]
    Chairman Rubio. And so do we, Congressman. I thank you for 
your testimony. [Applause].
    I'm going to recognize Senator Peters, because he has to go 
to a Senate Armed Services Committee, for questions.

  STATEMENT OF HON. GARY PETERS, A U.S. SENATOR FROM MICHIGAN

    Senator Peters. I'll just have a quick one here. Thank you, 
Chairman Rubio, and thank you to the witnesses. Leader Pelosi, 
wonderful to see you again, and Congressman Wolf as well; 
compelling testimony from both of you of what has happened with 
our China relations over these last few years. I can say, as a 
Senator from Michigan, we have seen the impact of unfair trade 
practices, in particular with the Chinese, as it has hollowed 
out manufacturing in particular.
    If you look at the auto sector and auto suppliers who want 
to go to China to do business in China, the Chinese say you're 
welcome here but you have to have a Chinese partner in that 
company, and then as the company goes to China and the Chinese 
partner then proceeds to take all the intellectual property and 
all the manufacturing processes. Then sooner or later, they use 
that against us in sending materials back to us at a 
considerably lower price, using whether just low labor, or 
other conditions that they have there like currency 
manipulation, which neither one of you mentioned but I know you 
feel very strongly about as well. Basically, these unfair trade 
practices are hollowing out good-paying middle-class jobs here 
in America.
    Now, I have been working with the Commerce Department to 
hopefully push them to use more enforcement actions beyond some 
of the enforcement that exists now. Normally, these unfair 
trade practices come to the Commerce Department or the 
government as a result of a complaint from a major industry 
group, and that is fine, although we need to do a lot more.
    But unfortunately, small business and medium-sized 
businesses don't have that, and oftentimes they get hurt in 
significant ways. The Department of Commerce does have an 
environment mechanism that allows them to take independent 
action to pursue these types of cases against the Chinese, as 
well as other countries around the world. Would both of you 
support giving the Department of Commerce enhanced ability to 
initiate actions on their own and to aggressively pursue unfair 
trade practices by the Chinese? Leader Pelosi?
    Leader Pelosi.  Yes. Thank you, Senator, for your attention 
to this important matter and your suggestion. If they would do 
it, it would be a great thing. Let me just say, as you heard 
from the testimony, you know why we all worship at the shrine 
of Frank Wolf: when he's on a case, he's on a case. He has been 
just a champion for human rights and fair trade practices and 
the rest in China.
    Since you mentioned manufacturing, I would just say that 
due to the trade deficit in China, just since the WTO 
accession, we have lost 3 million jobs, 75 percent of them in 
the manufacturing sector. So yes, I would support what you are 
saying about the Department of Commerce, if they would do it--
right? If they would do it. And I support that and what Mr. 
Wolf--Congressman Wolf, Mr. Chairman, to me, Wolf, has 
suggested.
    I would add one more thing to that, and that is the issue 
of reciprocity. Next week, March 10, the world will remember 
the 1959 uprising in Tibet. We will remember the Chinese 
Government's brutal response on Tibetans, on students and 
workers in Tiananmen Square, and on booksellers, feminists, or 
LGBT [lesbian, gay, bisexual, and transgender] people. The list 
includes anyone who disagrees or poses a threat to the Party in 
power, yet advocates in China and around the world continue to 
call on the Chinese Government to fulfill its promise by 
reprioritizing human rights.
    In 2015, I led a congressional delegation to visit Tibet. 
It was the first delegation in about 10 years or so, a 
congressional delegation that was allowed into Tibet. As 
Chairman Wolf mentioned, the brutality of the Chinese in Tibet 
is something.
    So reciprocity is one where they want to have more consuls, 
consul generals, in the United States, consulates in the United 
States, and we're saying, well, if you want to do that you 
should allow us to have a consulate in Lhasa. We haven't had 
the full cooperation of any State Department on that. We have 
some good words, but we will see.
    And I just want to make this further point about your 
question about Commerce, because here's the thing. What we were 
seeing happening is corporate America, financial services, 
legal firms, and all the rest were leading the charge for 
permanent normal trade relations with China, as they renamed 
it, but it was at the expense of American workers.
    Here's what they would do: they would say to these 
companies--we wonder if they ever made any money in China--but, 
of course, corporate America, they would say to them, Senators, 
yes, come here, and they'd see the mirage of the Chinese 
market. That's what it was, a mirage, because the Chinese 
Government would say, okay, now that you're here and you're 
going to manufacture here, we want a copy of your designs.
    So they had the copy, and then they say, okay, we don't 
need you anymore. We have your blueprints, we can do this 
ourselves. If you still want to manufacture here for export 
that's up to you, but don't have any thought about accessing 
the Chinese market.
    So they were really suckers, you know. They gave away their 
intellectual property for the Chinese to use in competition 
with them, and in some cases they would have a U.S. firm 
manufacturing here for export to the United States and prison 
labor right next door. You could walk right through the door 
into a prison labor factory for export to the United States and 
for the domestic market as well. So if our country is serious 
about protecting workers, and I don't mean that in a 
protectionist way, I mean just in a fair way, the Commerce 
Department should do as you suggest. Thank you.
    Mr. Wolf. I agree completely. I picked socks up off the 
line in Beijing Prison Number One. They were banned. They were 
all Tiananmen Square demonstrators making socks with golfers on 
them and they were all being sold here in the United States. 
Last, I would urge you to talk to the bureau and ask them to 
show you the list of who's being hit. You will not believe who 
they are going after, and I'll just leave it at that. But the 
bureau can let you see that list. You will be shocked.

  STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM FLORIDA; 
     CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Rubio. Thank you, Senator.
    So let me--first of all, this is a great opportunity for 
everyone to see how, on this issue of human rights, democracy, 
and respect for trade laws, that this is really not a partisan 
issue.
    Leader Pelosi.  No.
    Chairman Rubio. You have, obviously, Leader Pelosi, who's 
been the leader of the Democratic Party, and Congressman Wolf, 
who has been consistently a conservative Republican, and yet 
this is an issue that unifies, and should unify, all Americans. 
So the comment I'm about to make which prefaces my question is 
not meant to be partisan in any way, shouldn't be read in for 
politics. This is just a question that I think is important and 
fundamental to our foreign policy.
    Yesterday, the Secretary of State met with the Chinese 
State Councilor and the read-out of the meeting underscored the 
following. It said the two discussed, ``Maintaining a mutually 
beneficial economic relationship between the two largest 
economies.'' This read-out included not a single mention of 
human rights concerns, did not include the names of any 
political prisoners, and the like.
    So, obviously, it's a young and a new administration. 
Secretary Tillerson has been there just a number of weeks. The 
State Department is not fully staffed. But I wanted you both to 
kind of testify a little bit as to, from your travel around the 
world, your interaction with people that have been oppressed by 
totalitarian regimes everywhere how important it is, even if 
it's just in a conversation, even if it's just in a meeting, 
how critical it is for the voice of the U.S. Government, often 
expressed through the Secretary of State or the President or 
the Vice President, how important it is that human rights, that 
the names of individual prisoners, that the cause of individual 
causes be named so that people can see this and how much it 
matters to the oppressed to know that the United States of 
America, at the highest level, has not forgotten them.
    Leader Pelosi.  Chairman Wolf has asked me to go first. 
Thank you for your question, Senator, because it is absolutely 
essential. The Chinese really have a--let's go in the 
background and laugh out loud after such a meeting when, for 
all of our talk about promoting human rights throughout the 
world in a country where we have this big commercial interest, 
we are silent.
    I hope that the print-out is not complete. I am ever 
hopeful that our government at any opportunity would talk about 
human rights in China and Tibet, Tibet being part of China but 
specifically mentioning Tibet because of the particular 
oppression that is happening there. The reduction of democracy 
in Hong Kong should be an issue of concern to America and 
China's aggressive behavior in other parts of the world. You 
just can't ignore any of it, but you certainly cannot ignore 
human rights.
    Some of us were invited to Norway for the Nobel Prize 
presentation. Chris Smith and I did go for the presentation of 
the Nobel Prize to a Chinese dissident and the Chinese would 
not let him go to receive it, so an empty chair--you probably 
remember--with the award there, and the rest. I don't think any 
of us could think of a bigger honor than to be asked by the 
family to be part of that delegation representing Chinese 
dissidents--not just Liu Xiaobo, but Chinese dissidents--in 
China, and relate the messages throughout the world.
    I'll just close by saying this. Nothing they say causes 
more--the Chinese think that nothing causes more excruciating 
pain to a political prisoner than to say to him or to her--and 
I say her because, as we know, Sandy Gillis is detained by the 
Chinese Government--nothing causes more stress to a prisoner 
than for the Chinese to say to them, nobody even knows you're 
here, or why, or cares.
    So to your question, nothing is more important than--one of 
the most important things we can do then is to make sure that 
the names of the prisoners are always given to them in 
meetings, that we talk about it on the floor of the House and 
in public statements, and the rest, because we don't want to be 
accomplices to the torture that the dissidents are subjected to 
in prison by the Chinese regime.
    Mr. Wolf. I agree. I'll give you two examples. I met with 
Natan Sharansky. Sharansky said when people advocated for him, 
his life got better. The commandant of the camp, Colonel Osa, 
said why are all these letters coming in? I better be careful. 
This guy better get enough food; I better be careful. Sharansky 
said it invigorated him. He knew people were--and if you listen 
to Reagan, improved Camp 35 when Reagan gave--remember the E1 
Party speech? They were tapping on the wall in Perm 35, telling 
everybody that Reagan had spoken out. Secretaries of State in 
both administrations used to go to Moscow. Secretary Schultz 
would go to Moscow, they would meet with the dissidents, and if 
the dissident was in jail they would sometimes go to their 
house, go up into the apartment and meet with them.
    So not to speak out--now, I don't know Mr. Tillerson and I 
know he's going to do a good job. I hope he does; he has an 
impressive background as the beginning. But he really has to 
because, you know, to whom much is given, much is required.
    He's been given one of the greatest honors, to be the 
Secretary of the State of America, and not to advocate for the 
persecuted in China, the persecuted in--the Yazidi girls who 
have been taken hostage in Raca, not to advocate for Asa Bebe, 
the Christian Catholic woman who's been in jail for six years 
under a death sentence in Pakistan--six years. Six years--and 
not to say anything about it? He's got to. History will judge 
him poorly. You need to raise these.
    I'll end with the last thing. You can do it, Senator, in a 
respectful way. Let me give you an example. President Reagan 
said, ``Tear down that wall. . .'' President Reagan called them 
``the evil empire. . .'' President Reagan went to the Danilov 
Monastery and stood next to Gorbachev and spoke out for 
religious freedom.
    If you recall, who came to Reagan's funeral? Gorbachev. 
Gorbachev respected Reagan. He respected him for speaking out. 
He did it respectfully. He didn't do anything--but I think the 
model is Ronald Reagan speaking out at all times. But it 
really, really--just call Sharansky the next time he's in town 
and say, Natan, tell me, and he'll tell you, it is so powerful. 
So every person--and lastly, I think a congressional delegation 
should go.
    In the old days, they would always call down, Republican--
Tom Lantos never left the country without having a list of 
dissidents who were imprisoned in that country. The first thing 
that former Congressman Lantos would do is he'd give them the 
list. I mean, it was non-negotiable. They would get it out of 
the way and proceed, but it made a difference. So it makes a 
big difference.
    Chairman Rubio. Well, in that light--and I know, Leader, 
you have a hard stop to get out of here at 2:50, so I wanted to 
ask you one more question. I know you had mentioned it briefly 
in your testimony about a congressional delegation that was 
allowed to go into Tibet. I wanted to just talk about that a 
little bit further, the conditions. As the new administration 
develops its foreign policy, what are the most critical 
priorities in terms of the Tibet-specific policy? And I think 
to both of you, by the way, on that.
    Leader Pelosi.  Thank you very much. The Tibet issue has 
been very much a part of our human rights in China issue all 
along.
    The most important thing is for the Chinese to negotiate, 
to be engaged in dialogue, with the Dalai Lama. We've been 
asking for that for a long time. In fact, it was promised to 
His Holiness at the time that he acquiesced to the PNTR--
remember that sad day?--action by President Clinton. President 
Clinton represented that he would initiate the dialogue with 
the Dalai Lama and the Chinese leadership. At a different 
level, some dialogue has taken place, but not the dialogue that 
we anticipated with that. So, the dialogue.
    I've been asking for a--we've been asking for a visa to go 
to Tibet for a long time. When the President of China was here 
a year and a half or so ago in September, Senator Feinstein and 
I asked him about Tibet, the dialogue, et cetera. He said, why 
don't you just go there yourself and find out? And so I said, 
fine, give us a visa. That's what we want to do. So we got the 
visa, put a delegation together a few months later. In 
November, we went to Tibet.
    What we saw was like a Potemkin Village. They would say to 
me, see, we gilded the roof of the temple. I said, I'm not so 
interested in your gilding the roof of the temple, I'm 
interested in what's going into the minds and the heads of the 
children if you are preventing them from learning their 
culture, their religion, their language, who they are.
    Gilding the roof, I don't care about that. What I do care 
about is what goes into their heads. Look at what we're doing 
for infrastructure here. They were doing that throughout all of 
China, so thank you for doing it in Tibet as well.
    But the second thing I would say, is in addition to the 
dialogue, is the reciprocity. We want people to be able to go 
to Tibet to see because if it's a permanent kingdom--that's 
really Korea. But if it's a hidden place, then people won't see 
what is happening. The Han Chinese kind of taking over the 
culture of this beautiful Tibet, the people, the culture, the 
language, the faith. So the reciprocity in terms of consulates 
would be a good place.
    They said, we want more Americans to come here to go to 
school. Well, let's have a consulate because parents are not 
going to let their children go to school in a place where they 
have no connection. So I think a consulate--Jim McGovern, the 
co-chair, he was with Mr. Pitts, co-chair of the Lantos 
Commission, keeps asking for that. We have legislation to that 
effect.
    In his testimony before the Senate, the Secretary of State-
to-be then, Tillerson, then nominee, said, ``Reciprocity is an 
important part of our relationships with other countries and 
I'll make judgments about it as I go along.'' So it was a semi-
positive response, but I don't know what judgment he will make 
in light of what you just said.
    So it is--again, on the 10th of March, we will have an 
observance of what happened in Tibet, raising the profile of 
issues, continuing our assistance for Tibetans leaving Tibet. 
On our first visit to see the Dalai Lama in India, Republican 
Leader now in the Immigration Committee in the House, he will 
be coming with us on the trip and he--I don't know if he will 
want me to be using his name here publicly before we announce 
the trip.
    So on visas, for assistance for Tibetans leaving, we all 
have to sustain that. It is in the legislation and has been 
every year. Hopefully it will continue to be there so we can 
show our support. But the torture, the horror, the intimidation 
that is going on in Tibet now is really inhumane and we cannot 
ignore it. So, I thank you for your question.
    Mr. Wolf. I agree with Minority Leader Pelosi. We slipped 
into Tibet in the late 1990s with a young Buddhist monk. I went 
as a trekker. I got my passport out of Chicago. He took us back 
in the bowels of about 10 monasteries. Every monastery has 
Public Security police monitoring it. The stories we heard from 
Buddhist monks and nuns of torture at the Drapchi Prison was 
unbelievable. So, I agree with Minority Leader Pelosi.
    I think, one, the Dalai Lama ought to be able to return to 
visit. It's almost a visit to kind of culminate his life, if 
you will. Second, the culture. The Potala is an amazing 
building. Across from the Potala is an open--it's like a 
Russian--there's a Russian Mig in there. It's a parade ground, 
if you will. They have bull-dozed many Tibetan homes and 
things. So culturally, they need to maintain their culture. So 
I would say, (1) let the Dalai Lama return; and (2) let them 
maintain their culture. I mean, you're going to wipe out your 
culture? I mean, you want to remember. You want to remember the 
languages.
    Last, I think what Minority Leader Pelosi said, 
reciprocity. You want somebody there, let us open a visa. They 
had great booming. There were many Americans that used to go 
there for trekking. So, yes, that's really important. We want 
to do it before too long because this country is losing the 
cement that holds it together, the language, the culture.
    In some areas of Lhasa it's like a Chinese city. It isn't 
even a Tibetan city anymore.
    Chairman Rubio. Yes. So I know you touched on this question 
that I'm about to ask you in your testimony as well, but I'd be 
curious about both of your input on this. I would venture to 
guess that in the audience here today there are lobbyists 
representing the Chinese Government and public relations firms 
here in the audience as well. Some of these entities that 
engage in what can only be described as lobbying on behalf of 
the Chinese Government, they failed to register under the 
Foreign Agents Registration Act, which some have argued is 
outdated, it's antiquated.
    Would you agree, first of all, that we need to reform those 
laws? Do you have any ideas about what we could be doing to 
update those laws as needed so that everyone has a better 
understanding of who is representing particularly totalitarian 
governments before or trying to influence policymaking in 
Washington on behalf of totalitarian governments like the 
Chinese Communist Party?
    Leader Pelosi.  Well, I would just say this, because you 
remind me. When we were making our fight against most favored 
nation, we were idealistics and corporate America was out 
there. When we were going to our hearings, this would be the 
list, page after page--two columns, page after page after page. 
They had hired just about everybody in Washington, DC, wouldn't 
you say?
    Mr. Wolf. I would.
    Leader Pelosi.  Just about everybody.
    Chairman Rubio. They meaning the Chinese Government or the 
businesses interested in doing business there as well?
    Leader Pelosi.  Well, both.
    Chairman Rubio. Yes.
    Leader Pelosi.  A combination. The Chinese interests.
    Chairman Rubio. Okay.
    Leader Pelosi.  The Chinese lobby. They had page after page 
after page. They had hired everybody in DC. In fact, so many 
people said to me--because we persisted with this fight. They 
said, you know, you keep having these victories, because we 
would win votes but we just couldn't quite--Clinton, really, 
that was largely when we got rejected with the vetoes and 
stuff.
    But the people would come up to me and say, thank you so 
much for your advocacy on behalf of human rights in China, you 
sent my children to college. These lobbyists were making a lot 
of money off of our advocacy for these poor people in China. 
But they were admitting that with the gravy train of all time, 
the Chinese Government lobbying for what was most favored 
nation, changed to PNTR, so that it would have a different 
impression in the public mind.
    So yes, I think the public should know. People should 
register if they're representing a foreign government, no 
matter what it's for.
    Mr. Wolf. I agree with Minority Leader Pelosi and I think 
the answer is in the IG report. He did a great report. He is a 
good IG. Everybody is recommending everything to him. He's 
pretty nonpartisan. Look at his report. He makes some really 
powerful recommendations. I think that Congress, at a minimum, 
has to do that because if you don't we will never know who is 
doing what.
    So yes, the IG--I'm sure he'll come up and brief you, brief 
your staff, but he has some pretty good recommendations that 
ought to be able to pass whether you're for China, lobbying 
against China, lobbying--everyone ought to know who's involved.
    Chairman Rubio. Well, you've both been incredibly generous 
with your time. I don't know if there's any other topic you 
wanted to touch upon. We have a second panel waiting. We're 
grateful to both of you for being a part of this.
    Leader Pelosi.  And if I just may, Senator, I really want 
to thank you for your interest in this subject. I remember when 
we had our fateless breakfast the last time the President of 
China was honored in the White House in September of not last 
year, but the year before, that you sent us a video and it was 
a high point of our statement about human rights in China and 
Tibet, and we thank you for that.
    I'd just say this because this has been kind of negative, 
but some of us were a little--way before your time we were told 
at the beach if we dug a hole deep enough we would reach China, 
so we feel connected to China and we would hope that our two 
countries could enjoy a brilliant future together as we are 
doing on some scores, the climate change issue and the rest, 
and that's important to Tibet as well, the water issues in 
Tibet, the rivers being a source of water for much of Asia. But 
the fact is that they won't respect us if we don't respect our 
own values. So I thank you for giving us this opportunity.
    Chairman Rubio. By the way, you make a great point because 
often we talk about China, or any country for that matter, and 
we always have to make the distinction, we are not talking 
about the people of those nations----
    Leader Pelosi.  No.
    Senator Rubio (continuing).--with whom we hope to have a 
fantastic relationship, nor are we talking about the 
containment of China, which is a great nation and a great 
civilization who we hope will join the ranks of responsible 
global actors. We're talking about the government, particularly 
the Chinese Communist Party, and the way it treats its own 
people. That is what we're discussing here.
    Leader Pelosi.  That's right.
    Chairman Rubio. Not the people of a great nation and of a 
great civilization with whom we hope to have a warm and 
productive relationship in the years to come. Our objection is 
to the practices of a specific government and a group of 
leaders who are oppressing a whole host of different 
individuals and groups within their population. So it's a great 
point that you raise. I thank you both for your years of 
advocacy on this behalf.
    Leader Pelosi.  Thank you.
    Chairman Rubio. I know how busy you both are. Congressman, 
thank you. Did you want to add something?
    Mr. Wolf. Well, I was just going to say, when you speak out 
it really makes a difference. I appreciate what you have done 
on some of these issues. It is really--you know, again, 
President Reagan, I think, was the model. I think by your 
speaking out and advocating, I think--and I believe that the 
Chinese people are a wonderful people.
    The fact is, and this is going to turn into a religious 
meeting, but I pray for the Chinese people every single night. 
I believe in my lifetime I will see freedom and democracy 
there. I think what is taking place--there's a hunger. So the 
people are wonderful, it's the Chinese Communist Government 
that's the problem.
    The more you're speaking out, and other members, in a 
bipartisan way--this hearing will get to China and it will make 
a difference. Right now if you go to China and go into an 
Internet cafe and put in Minority Leader Pelosi, she doesn't 
exist. You don't exist. But the Chinese people have a way and 
they're here.
    While you're speaking out, it can make all the difference. 
If I'm right--I used to pray--our visit to Romania in 1985 with 
Chris Smith. I came back and I pledged to pray every night. In 
1989, I was in a television store buying a television, an 
American-made television, and I saw that revolution was taking 
place in Romania.
    I think the Chinese found Ceausescu's play book and I think 
they're operating on it. I think they're going to go down and I 
think we're going to see freedom and democracy. The more you 
speak out, it can really make a difference. Thank you.
    Chairman Rubio. Thank you.
    Leader Pelosi.  Senator, it's an honor to be here with 
Chairman Wolf, but thank you for your beautiful closing 
remarks--assuming they were closing remarks. I certainly 
associate myself with your characterization of our aspirations 
and friendship with the people of China. Thank you, Mr. 
Chairman.
    Chairman Rubio. Thank you both for your time. Thank you.
    As we'll transition, I'm going to announce our second 
panel. That will include Michael R. Wessel, the president of 
the Wessel Group, and a Commissioner on the U.S.-China Economic 
and Security Review Commission; Mr. James Mann, the author of 
``The China Fantasy'' and several other books on China and U.S. 
foreign policy; Jeff Gillis, who is the husband of American 
businesswoman Sandy Phan-Gillis, who has been detained in China 
for the past two years; and Sophie Richardson, who is the China 
Director at Human Rights Watch.
    I want to thank all of you for being here, as you take your 
seats, to discuss an issue that I believe is of growing 
significance, not simply in terms of our economy and of our 
national security, but also in terms of the principles that 
should animate our foreign policy. Your testimony today will be 
important.
    As is the case this time of year with so many votes going 
on, you may see members come in and out. You saw Senator Peters 
had to leave early. I will be here, obviously, but we're 
running this meeting and we're very excited about the fact that 
you are all going to be here testifying. I know all of you have 
prepared statements.
    I would encourage you to, to the extent that you can--
sounds like an oxymoron coming from a Senator--but try to limit 
it so we can get into the questions and make sure we can get as 
many of the answers as possible into the record, because even 
the members that are not here will read the record, and we can 
go back time and again.
    But what happens after your testimony here today, even 
though we don't necessarily--CNN isn't here, whatever it may 
be, we are always citing back to this testimony in the floor 
speeches, in our legislation, when we're called to testify 
before a committee. We are constantly pointing back to the 
testimony, which is why this is so important, to be able to 
have it as an anchor for the policies we pursue and the 
arguments that we make.
    So I appreciate all of you for being here. I would just 
begin with you, Mr. Wessel, and ask you for your opening 
statement. We thank you again for being a part of this panel.

STATEMENT OF MICHAEL R. WESSEL, PRESIDENT, THE WESSEL GROUP AND 
     COMMISSIONER, U.S.-CHINA ECONOMIC AND SECURITY REVIEW 
                           COMMISSION

    Mr. Wessel. Thank you, Mr. Chairman. It's an honor and a 
privilege to appear before you today. Let me make clear that 
the views I express are my own. It's also a deep honor to 
appear on a panel right after two people who I believe are 
heroes of the human rights/democracy movement in Congress. We 
need more of them. Your leadership and that of the members of 
this Commission is deeply appreciated.
    Let me start with my conclusion: Promoting human rights and 
the rule of law isn't just the right thing to do, it is 
critical to our economic and national security interests. These 
issues are inextricably intertwined. The failure of the last 
two administrations to hold China accountable has essentially 
granted China a license to steal: our jobs, our economic 
strength, our national security, and the rights of their 
people.
    From human rights, to intellectual property, to the law of 
the sea, China has ignored international norms and the rules 
essentially without consequence. The world is less safe, less 
secure, and human rights are increasingly at risk because of 
China's refusal to be a responsible stakeholder and our own 
government's refusal to hold them accountable for not adhering 
to the rule of law and the protection and advancement of human 
rights.
    You heard in the last panel some of the statistics on the 
failure of China's entry into the WTO to yield the economic 
benefits for our country: we have almost $4 trillion in 
cumulative trade deficits with China since its entry into the 
WTO; estimates, as Leader Pelosi indicated, are more than 3.4 
million jobs lost alone due to the bilateral imbalance; dozens 
and dozens of trade cases filed and won against Chinese 
products subsidized and dumped into our market; cyberespionage 
that has resulted, as the former head of the NSA [National 
Security Agency] said, was the greatest transfer of wealth in 
history.
    The so-called economic promise of China has turned into an 
economic nightmare. The United States has repeatedly shown that 
enforcing the laws and the norms isn't a real priority. 
Virtually every trade case brought against China was done by 
the private sector. Our responses to Chinese laws restricting 
economic access, from the anti-monopoly law to new restrictions 
on NGOs [non-governmental organizations], should be more 
assertive.
    We have failed to engage in a robust effort to stem human 
rights abuses. When China began reclaiming rocks and reefs in 
the South China Sea, our response was limited. When our 
government decides that it is not going to challenge China's 
rule-breakings and holds its tongue in the face of rampant 
human rights abuses, it simply empowers China's leaders. If the 
United States won't stand up, who will?
    The massive transfer of wealth from the United States to 
China because of a deficient WTO accession agreement, 
inadequate enforcement of the laws, inaction against Chinese 
cyberespionage and essentially complete denial of currency 
manipulation, just to name a few failures, has enabled China to 
build one of the world's most capable militaries, with rising 
force projection capabilities and a domestic security apparatus 
capable of choking the human rights activities and aspirations 
of its citizens. Mr. Chairman, in my prepared testimony I go 
deeper into many of these points.
    Let me quickly turn to some potential recommendations I 
offered, and I will move quickly to try and give the maximum 
amount of time to Q&A.
    Members of Congress--and this was emphasized by the last 
panel--must raise their voices on behalf of those fighting for 
their rights, freedom, and very lives in China. The Chinese 
leadership must know that we will not rest until there is 
justice for those unfairly and unjustly imprisoned, detained, 
or treated poorly. Members of Congress must also speak out on 
the need to preserve the remaining democratic attributes of the 
Hong Kong system. We must not lose our voice in terms of movies 
and the media, which Mr. Wolf talked about in the last panel.
    We should use the renegotiation of the Memorandum of 
Understanding between the People's Republic of China and the 
United States regarding films for theatrical release to try to 
ensure that access for U.S. films is not limited simply to the 
products of those companies that the Chinese have purchased.
    A minimum of 50 percent of the limit on films covered by 
the agreement should be allocated to non-Chinese-owned firms. 
That is if the administration's negotiators can't open the 
market completely, which should be the goal.
    We should also assess Chinese activities relating to 
students, researchers, and other nationals here in the United 
States. The last panel talked about reciprocity, which is 
completely imbalanced in this area, from Confucius Institutes 
to the Thousand Talents programs, to a variety of other 
problems that we face.
    Finally, we must include the impact of certain acquisitions 
of U.S. companies by China on human rights as a consideration 
on whether to approve a transaction through CFIUS.
    As an example, Congressmen Smith and Pittinger just 
published a piece in the Wall Street Journal that identified 
the potential threat that might exist with the acquisition of 
MoneyGram by China's ANT Financial if approved.
    In their piece they said, ``The Chinese Government is a 
significant shareholder of ANT Financial. Should this 
transaction be approved, the Chinese Government would gain 
significant access to, and information on, financial markets in 
specific international consumer money flows.
    ``As the Chinese Government increasingly cracks down on the 
political, religious, and human rights activists, we must fully 
examine how the MoneyGram network may be used by the Chinese 
Government to target these voices.''
    Again, thank you, Mr. Chairman, and I look forward to your 
follow-up questions.
    Chairman Rubio. Thank you so much.
    Mr. Mann? Thank you, and welcome.
    [The prepared statement of Mr. Wessel appears in the 
appendix.]

   STATEMENT OF JAMES MANN, JOHNS HOPKINS SCHOOL OF ADVANCED 
    INTERNATIONAL STUDIES (SAIS) AND AUTHOR OF ``THE CHINA 
   FANTASY'' AND OTHER BOOKS ON CHINA AND U.S. FOREIGN POLICY

    Mr. Mann. Mr. Chairman, thank you for giving me the 
opportunity to appear before you.
    In the year 2000, when Congress gave its approval for the 
entry of China into the WTO, the dominant view in Washington 
was that China's admission would bring changes that extended 
well beyond mere trade and economics. Bringing China into the 
WTO, it was argued, would help open the way for gradual 
political liberalization and the rule of law in China.
    Leaders of both political parties regularly embraced this 
view. Bill Clinton said at one point, ``trade and economic 
changes in China would help to increase the spirit of liberty 
over time. I just think it's inevitable, just as inevitably the 
Berlin Wall fell.''
    On the Republican side, President George W. Bush said, 
``trade freely with China and time is on our side.''
    At the time, I believed this view was wrong. My conviction 
was based on the fact that I'd been a foreign correspondent 
based in China in the 1980s, and even during what was viewed as 
the era of reform in China you could sense the intense and 
growing opposition within the Chinese Communist Party toward 
any significant political change, and that resistance remains.
    It was these broad claims about the impact of trade that 
prompted me to write the book, ``The China Fantasy.'' In it, I 
argued that the Chinese regime was not going to change in the 
way that American leaders had predicted. In the book, I laid 
out three different scenarios put forward by various people for 
China's future. One was what I called the ``soothing 
scenario,'' and it's what I've just discussed, that with 
growing trade and development, China would inevitably open up 
its political system.
    A second was that China would disintegrate into chaos. You 
don't hear this idea as much anymore, but in the decade after 
the Tiananmen crackdown, there were predictions that China 
would break or collapse.
    Then there was what I called the ``third scenario''--that 
with trade and growing wealth, China will simply become a 
vastly richer authoritarian state. I thought this third 
scenario was the most likely.
    It's now been exactly 10 years since that book, ``The China 
Fantasy,'' was published. Sad to say, the third scenario I 
wrote about is exactly what we see today, a richer, more 
repressive China. Indeed, over the past few years the regime 
has been entering the new types of repression, arresting 
lawyers, severely restricting NGOs, staging televised 
confessions of those who are detained.
    What we're seeing today is in fact the opposite of what 
many American leading politicians and China experts predicted: 
development and prosperity have yielded a regime that curtails 
dissident and independent political activity more than it did 
5, 10, or 20 years ago.
    We are seeing now what I would call the ``New China 
Paradigm.'' It is one that could apply in other countries like 
Turkey or Egypt. In a modern authoritarian society with a 
sophisticated security system, the more prosperous and educated 
a society becomes and the more there are stirrings from the 
public toward development of a civil society, then the more 
repressive the state will become in response in order to 
prevent greater threats to its control.
    So what is to be done? What options are there for the U.S. 
Government in devising its China policy today? Of course, there 
are no easy answers, but in my prepared testimony I sketch out 
four. One, is simply to drop the China fantasy, although you 
hear it less often than you used to, people still sometimes say 
that over time China is going to liberalize and the trade will 
play an important part in that.
    My second recommendation is that U.S Government officials 
should not refrain from speaking against political repression. 
The United States should speak out as forthrightly as possible 
on behalf of human rights and the rule of law. This subject has 
been covered by others at this hearing already. I would point 
out as well that Liu Xiaobo, the winner of the 2010 Nobel Peace 
Prize, remains incarcerated in China, yet U.S. officials talk 
about him in public less and less.
    My third subject is to insist on the concept of reciprocity 
in the U.S. relationship with China. If you have heard that at 
the hearing so much that it sounds like a broken record at this 
point, that's all to the good because the concept of 
reciprocity is extremely important. I would single out not just 
business organizations, but news media where the asymmetry has 
become truly ridiculous.
    In China, American news organizations find their websites 
blocked, the Chinese Government denies visas to reporters it 
doesn't want, there are severe restrictions on reporters' 
access and their travel, while here in the United States, 
Chinese state-run news organizations enjoy the freedom to print 
propaganda inserts you can find in your local newspapers. 
China's state-run television gets full access to the broadcast 
spectrum, and so on.
    The fourth recommendation, finally, is we need to break out 
of the habits of personalized diplomacy. This goes to the very 
style of our negotiations with China. I could spell this out 
more later on. But when you see, as you do even yesterday at 
the White House the same person negotiating with China, Yang 
Jiechi, a very skilled and very polished diplomat, first got to 
know American officials in 1977, 40 years ago, when he was the 
translator for a visit to China by George Bush, Sr. and James 
Lilley.
    We keep retreating to the Kissinger model and, in ways that 
I lay out in my paper, it doesn't work. It often proves harmful 
to our interests because it puts a single top-level official 
within the U.S. Government on the hook to receive China's 
complaints and to keep China happy. This official, usually the 
National Security Advisor, then calls others in the U.S. 
Government, such as cabinet members, and tells them to soften 
or rein in whatever actions their own rules and regulations 
tell them are required in dealing with China.
    Let me stop there, and I'd be happy to answer your 
questions.
    Chairman Rubio. Thank you. Thank you so much.
    Mr. Gillis, thank you for being with us.
    [The prepared statement of Mr. Mann appears in the 
appendix.]

     STATEMENT OF JEFF GILLIS, PH.D., HUSBAND OF AMERICAN 
BUSINESSWOMAN SANDY PHAN-GILLIS, DETAINED IN CHINA FOR THE PAST 
                           TWO YEARS

    Mr. Gillis. Chairman Rubio, Cochairman Smith, and 
commissioners of the CECC, thank you for this opportunity to 
testify at this hearing and for the chance to tell Sandy's 
story.
    Sandy is an American citizen, a wife, a mother, a 
businesswoman. She was detained by China's state security on 
March 19, 2015, while on a trade mission to China with Houston 
mayor pro-tem Ed Gonzalez to promote business between Houston 
and China.
    Sandy made this trip in her capacity as a member of the 
Mayor's International Trade and Development Council and as 
president of the Houston Shenzhen Sister City Association. She 
was seized one day after meetings that she arranged between 
officials of Houston and Shenzhen. Sandy was detained by China 
State Security. This is the Chinese spy agency, not China 
Public Security, China's police force. China State Security is 
the Chinese agency that sends spies to America to steal 
commercial and national secrets.
    Sandy's first six months were spent in designated-location 
residential surveillance where she was subjected to solitary 
confinement, torture, and relentless questioning in a torture 
chair. This chair has been described as a short, four-legged 
stool with raised teeth in the seating area.
    She was subjected to repeated threats, including the threat 
to take away her access to doctors and medicine. Sandy suffers 
from a number of serious medical conditions and she takes seven 
prescription medicines a day. Threatening to take away her 
access to doctors and medicine is not much different than 
threatening to kill her.
    For a time, Sandy was denied access to medicine. State 
Security used torture to force Sandy to make a false 
confession. Sandy was hospitalized twice as a direct result of 
her horrific treatment by China State Security. One of these 
hospital stays was for five days after Sandy had a fear-induced 
heart attack during a brutal interrogation. How would you feel 
if your wife was treated in this way, or your child was treated 
in this way?
    The Working Group on Arbitrary Detention in the Office of 
the UN High Commissioner for Human Rights looked at Sandy's 
case and determined that Sandy's rights had been arbitrarily 
violated. She'd been arbitrarily detained and her rights had 
been violated under international law. This is the first time 
in history that the United Nations had ever ruled that an 
American citizen had been arbitrarily detained by China. Part 
of the reason for the ruling by the United Nations was 
admission by Chinese officials to treating Sandy in ways that 
violated international law.
    Sandy was not allowed to speak with her lawyer for over a 
year. She was not charged with a crime for over a year.
    For about the first year and a half, China State Security, 
the very people who tortured Sandy, were monitoring her visits 
with the consul whenever those happened. Chinese authorities 
eventually did file charges. They claimed that Sandy was a spy 
for the FBI [Federal Bureau of Investigation], which is not 
even a spy agency. She is specifically accused of going on two 
spy missions to China on behalf of the FBI in 1996, and then 
helping the FBI catch and convert two Chinese spies in the 
United States to double agents to spy against China.
    The FBI has denied that Sandy ever worked for them. In 
addition to that, we have a mountain of evidence, which I won't 
go into but I do document some in the written comments. One 
thing is that we have her passport from 1996 that shows that 
she never went to China that year.
    Sandy has spent her career encouraging interaction between 
the United States and China: business, cultural exchange, 
educational exchange. She founded, and for years ran, Houston's 
longest running Chinese New Year festival. She served as either 
the vice president or president of the Houston Shenzhen Sister 
City Association over 20 years. She was that association's 
representative to the Sister Cities of Houston board for over 
20 years.
    She has worked extensively and for decades with the Chinese 
Foreign Ministry, the City of Houston, the Chinese consulate in 
Houston, the Municipal Government of Shenzhen, and the Public 
Security Bureau of Shenzhen. She has introduced hundreds of 
Americans to China and hundreds of Chinese to America, 
including school kids. She's hosted Chinese dignitaries. She's 
arranged for doctors and nurses to receive training in Houston. 
She's arranged for medical care and medicine in Houston for 
injured Chinese police officers.
    She even helped introduce Houston to a very young Yao Ming, 
when she introduced some goodwill basketball games in China 
between Houston NCAA [National Collegiate Athletic Association] 
all-star players. They played many games against Chinese teams, 
including a number of games against the China National Team, 
and the newest member of that team at the time was a teenaged 
Yao Ming.
    Houston Mayor Sylvester Turner, the Houston Shenzhen Sister 
City Association, and the Sister Cities of Houston have 
documented many of Sandy's good works for China and for 
Houston-China relations, and it is not just one or two pages. 
It is, quite literally a book. I could spend days talking about 
what Sandy has done that has been in support of China and for 
China-Houston relations.
    Any Americans traveling or considering traveling to China 
should ask themselves the question, if their story, in terms of 
goodwill to China, is as good as Sandy's. In all honesty, if 
China State Security can arbitrarily detain and torture Sandy 
they can arbitrarily detain and torture any American citizen. 
If Sandy isn't safe in China, no American is safe in China.
    Sandy is not some top-secret agent for the FBI. She is a 
wife, and a mother, and a businesswoman with aging parents, 
including a father who is still hospitalized after suffering a 
major heart attack. It is breaking Sandy's heart that she can't 
be with her father right now to help take care of him.
    Sandy suffers from many serious health problems, including 
high cholesterol, high blood pressure, and high blood sugar. 
She takes many medicines a day and I worry very much about her 
health. Should she be sentenced to prison, Chinese prisons are 
forced labor prisons. I doubt she would last very long in such 
an environment with her health. We need to find a way to bring 
Sandy home and I would appreciate anything that this group, the 
wider Congress, or the administration can do to help bring her 
home.
    Sandy is in a desperate situation and needs all the help 
that she can get. She's been detained for far too long, and I 
will ask a couple of questions here: Where is the outrage; 
where is the action; where are the consequences for China?
    I'll give an example that gets to the heart of this 
committee's meeting. Fifteen years ago, at the time that China 
was being considered for the WTO, there was a very similar 
case. There were four academics that were detained in China 
that had some standing in the United States, two citizens, two 
green card holders, and they were detained, accused of being 
spies.
    There was public condemnation by the President, public 
condemnation by Members of Congress, public condemnation by the 
State Department. All four of those prisoners were released 
within five months. So far, there have been no consequences for 
China for detaining Sandy, and that needs to stop.
    The question I'll ask that's related to that is that when 
it comes to human rights in China, has China's admission to the 
WTO changed China for the better or has it changed us for the 
worse?
    Thank you for your interest in Sandy's case. I would 
appreciate anything that you can do to help her.
    Chairman Rubio. Thank you, Mr. Gillis. Congressman Green is 
here. I know he represents you and your family in that 
District, and I'm going to give him an opportunity in a minute 
to either make a statement or ask a question. Your case is one 
that we will continue to highlight. It's unbelievable to me how 
few Americans know of this case. I think you make some good 
points and I look forward to exploring that with you in just a 
moment.
    Ms. Richardson, thank you for being here and being a part 
of this.
    [The prepared statement of Mr. Gillis appears in the 
appendix.]

 STATEMENT OF SOPHIE RICHARDSON, PH.D., CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Chairman Rubio, Commissioner Young, and 
Representative Green, thanks very much for your ongoing concern 
about human rights abuses in China. This is extraordinarily 
important leadership.
    Senator Rubio, on behalf of Human Rights Watch I would also 
like to thank you for your particularly ferocious interventions 
on behalf of human rights diplomacy and confirmation hearings. 
We think that was a very important moment and we're grateful 
for it.
    When China joined the WTO, it committed to greater respect 
for the rule of law, openness, and adherence to international 
standards. But since that time, and particularly since the 
beginning of the Xi Jinping era in March 2013, the Chinese 
Government has not only failed to implement key legal reforms, 
but also pursued the adoption of highly abusive policies on 
issues ranging from cybersecurity, to terrorism, to NGO 
``management,'' all of these decisions in tension with China's 
human rights obligations under domestic and international law.
    It has not only failed to support peaceful civil society, 
individuals and groups who work on issues ranging from rural 
literacy to constitutional reform, but instead it has turned on 
that community and punished it with detentions, disappearances, 
and torture. Not only has China demonstrated extraordinary bad 
faith in the mechanisms ranging from human rights dialogues to 
U.N. treaty body reviews, it has also increasingly sought to 
remake those instruments in the ways that serve its purposes, 
not the goal of defending human rights.
    Some have argued that while China may not have made 
progress on human rights, WTO accession and entry into other 
global trade regimes have brought about greater openness for 
business and trade. But if that is the case, why did 8 out of 
10 AmCham China respondents, in January 2017, say they felt 
less welcome in China. Why is a business person, an ambassador 
like Jeff's wife, being detained and held incommunicado?
    Why is it that business associations, who presumably 
thought that by this point in time they would be treated with 
greater respect and have more room to operate, are now, in 
fact, facing the kinds of restrictions that domestic civil 
society has put up with by way of the new Foreign NGO 
Management Law? It's hard to see how there's been really 
meaningful progress that even sustains those particular 
interests.
    Human rights abuses in China exist and persist in part 
because the United States has failed to address those 
holistically and has failed to impose a price for those abuses. 
It is now painfully clear that reformers in the Chinese 
Government do not have influence. We believe they exist, but 
they're sure not the ones calling the shots.
    Arguments that China just needs a little more time or a 
little more exposure to the outside world do not hold water, 
and that senior Chinese officials patently reject the argument 
that greater respect for rights leads to stability. The 
argument that opening to trade would lead to greater political 
openness was woefully wrong and, as a result, the world now 
faces the prospect of dealing with an aggressive, affluent, and 
utterly rights-disrespecting Chinese Government.
    So if China is to become the kind of viable, predictable 
partner, a global player many--including us--want it to be, we 
need to redouble efforts to promote human rights improvements. 
But doing that effectively requires absorbing another key 
lesson of the last 15 years: that Beijing generally only 
responds to the threat of negative consequences.
    Now, the Trump Administration appears willing to be at 
least tough rhetorically on China with respect to trade, 
Taiwan, and the South China Seas, but it is not yet clear 
whether or how human rights fit into that picture.
    What can Congress do to educate the administration and help 
arrest the downward spiral of human rights in China? First, 
urge the administration to publicly articulate its China policy 
and ensure that human rights are a priority across the 
administration, not just for the State Department.
    We are concerned that not just one, but three read-outs of 
meetings between Secretary Tillerson and Chinese counterparts 
include no references to human rights at all--not just no 
references to individual cases, but no references to rights. As 
we all know from past administrations, what happens early on 
matters enormously. That bar has to be set high, and set high 
now.
    Second, ensuring that failures by the Chinese Government to 
mitigate human rights abuses have meaningful consequences, 
ideally on issues that matter most to Beijing. That could 
include the United States publicly declining to engage with 
China on corruption-related issues, which are a priority for 
Beijing, unless and until the latter can show that it can 
provide due process consistent with international human rights 
standards.
    In a similar vein, the next time the United States becomes 
aware of Chinese police or Communist Party officials who are in 
the United States on tourist visas, but who are hunting 
allegedly corrupt officials from the mainland, those people 
should be detained and prosecuted, not quietly chastised and 
sent home.
    The Chinese Government prefers to tolerate shallow rule of 
law dialogues as substrates for meaningful human rights 
discussions, but why not insist that all Chinese human rights 
lawyers be released before scheduling any further interactions 
with the Ministries of Justice, Public Security, or State 
Security?
    As Beijing seeks to expand its propaganda operations 
worldwide rather than respect meaningful press freedom at home 
or abroad, let journalists from Xinhua and People's Daily come 
here, but oblige them to register as foreign agents with the 
Department of Justice. We strongly support the recommendations 
that have been made about both FARA and about CFIUS.
    Third, if the United States is uncomfortable with the 
current reality that stems from having pursued trade at the 
cost of promoting rights, it should now use China's need for 
access to the outside world, including its commercial and 
financial priorities, as forms of leverage.
    Not only do we look forward to working closely with you on 
implementing the Global Magnitsky Act, but why not also demand 
that Chinese companies investing in the United States and 
elsewhere perform human rights due diligence and demonstrate 
that they are addressing problems or face civil actions? Why 
not require greater transparency of investments by Beijing's 
sovereign wealth fund, the CIC [China Investment Corporation]? 
From Burma to South Africa, tactics like these have helped 
stimulate positive change.
    Fourth, consider Commission travel, as Leader Pelosi and 
Mr. Wolf talked about, to places like Beijing, Hong Kong, 
Lhasa, or Urumqi. Those kinds of visits invariably generate 
positive consequences on human rights issues.
    Fifth, please support U.S. engagement at the U.N. Human 
Rights Council. This is the place where the United States 
scored, arguably, the greatest China human rights victory in 
2016 by leading on an unprecedented joint resolution. Eleven 
other countries signed on. There is interest in doing one at 
the June session, but I think that is not going to happen 
unless the United States supports it.
    Last but not least, we have to ask you to continue doing, 
or do more of, something that you've excelled at in the past, 
and that is highlighting, paying attention to, listening to 
independent civil society activists. This is the place where 
they have been heard, they have been remembered, whether it's 
Liu Xiaobo or Wang Yu, whether it's Gao Zhisheng or the Panchen 
Lama, whether it's Ilham Tohti, or many others. This is the 
place where those voices that are critical to informing U.S. 
policy are heard and know they have a home. We hope you 
continue to welcome them in the coming year.
    Thanks.
    Chairman Rubio. Thank you all for your testimony.
    Congressman Green is here, and I know that the Gillis 
family are your constituents. I wanted to recognize you for a 
moment. I know you had some items that you wanted us to put in 
the record as well.
    [The prepared statement of Ms. Richardson appears in the 
appendix.]

  STATEMENT OF HON. AL GREEN, A U.S. REPRESENTATIVE FROM TEXAS

    Representative Green. Thank you, Mr. Chairman. I especially 
thank you for allowing me to be an interloper today. I want to 
give you an apology because I arrived a little bit late. I 
anticipated being here to hear all of the witnesses give their 
testimony; I did hear Mr. Gillis. We did have votes and I left 
right in the middle of those votes to get here because this is 
important to me.
    Mr. Chairman, I would like to introduce into the record, 
with unanimous consent, a resolution titled H.R. 153. This is a 
resolution that is sponsored by Mr. Poe and I to make an appeal 
to the government of China, and to all persons, to try to get 
Sandy released. The last part of the resolution was probably 
most important. It reads that ``we request the immediate 
release of Sandy Phan-Gillis by the government of the People's 
Republic of China.'' There are a number of whereases and 
wherefores, but I think that's important.
    Chairman Rubio. This resolution will be submitted into the 
record, without objection.
    Representative Green. Thank you again.
    And I would like to also thank Mr. Andrew Duncan, who has 
been very helpful. He came to my office with Mr. Gillis and it 
means a lot to me that he has made this a special part of his 
mission in life.
    Mr. Gillis is a very dear friend now. He started out as a 
constituent, but this has evolved into a friendship. We are now 
on a mission of mercy. We were initially seeking justice, and 
we still seek justice, but this has metamorphosed into a 
mission of mercy because, quite candidly, Mr. Chairman, 
regardless as to what is perceived in China, it is my belief 
that mercy is a measure that should be applied to this 
circumstance.
    Mr. Gillis has already testified about the health of his 
wife, the health of her father. These are circumstances that I 
believe would merit some consideration. I have called these 
circumstances to the attention of the appropriate officials 
with the Chinese Government in Houston, Texas.
    I have made appeals on many occasions to see what we can do 
from our end as a Member of Congress to acquire not only an 
opportunity for Mr. Gillis to see his wife, but for us to have 
other persons see her as well.
    We have, thus far, not been successful. This is especially 
painful for Mr. Gillis, Mr. Chairman, because there is no 
playbook, there are no instructions. There is nothing to say to 
him, here's where you start and here's what you do next. 
There's nothing to give him a sense of, where am I, where am I 
going? He doesn't see a light at the end of the tunnel. He only 
wakes up every morning knowing that he has another day to 
agonize over his wife's detention. It is especially painful for 
him. I cannot feel his pain, but I do see it and I do 
comprehend how it is having an impact on him.
    So, Mr. Chairman, what I'm going to do now, if I may, with 
your consent and permission, is ask Mr. Gillis just a couple of 
questions and I will then yield back, with your consent.
    Mr. Gillis, you have given what I consider to be very 
important testimony, salient testimony. But I do want to know, 
do you have any policy recommendations? Are there things that 
you would recommend that we do to make this circumstance much 
more palatable for the next person, if there is another? God 
knows that I pray that there won't be, but if there is another, 
are there any policy recommendations that you have for us?
    [Resolution H.R. 53 appears in the appendix.]
    Mr. Gillis. I do have some policy recommendations. In fact, 
I think the biggest problem right now is that there have been 
absolutely no consequences to China for doing this. Seizing an 
American citizen, torturing her, there have been no 
consequences. There needs to be consequences.
    Chairman Rubio. I'm sorry to interject. I wanted to ask as 
part of this question, do you know--and I don't know the answer 
offhand--is there a State Department advisory on travel to 
China as a result of her detention?
    Mr. Gillis. There is not. One of my recommendations is 
there should be. So the State Department does a number of 
things. They maintain country notes and what they've done is 
they've taken Sandy's case and they've taken some of the 
details of it and they've put a note in there, but this is the 
fine print.
    This isn't what people look at to determine whether or not 
it's safe to go to a country. People look at a travel advisory. 
I think that a travel advisory, under these circumstances, 
would be entirely appropriate. That is one of my 
recommendations.
    Another recommendation is that Chinese officials that are 
involved in arbitrary detention and torture of an American 
citizen, really they should be barred from entering the United 
States, their families should be barred from entering the 
United States. I would support a policy of seizing any assets 
they have in the United States and applying them toward people 
that have been maltreated by their actions.
    One of the recommendations I have has to do with a current 
Chinese program called Operation Fox Hunt, where they go around 
the world trying to retrieve so-called economic criminals and 
return them to China to face criminal prosecution and to 
retrieve the funds that they've stolen.
    In point of fact, we work with China on these issues. China 
sent a lot of people--as Sophie mentioned, China sent officials 
to the United States to essentially extort compliance from some 
of these people and make them go back, and we caught them and 
we just told them to go. We just kicked them out. We didn't 
arrest them and throw them in jail and try and prosecute them 
or try and use them to maybe win freedom for Sandy.
    Instead, the FBI works with this organization to help them 
find people and return them. The FBI maintains an office in 
Beijing, where one of their major responsibilities is to work 
with China to help track these people down. The Justice 
Department works to return these people. I think that 
cooperation with China on the return of these officials should 
be completely halted until Sandy, and others like her, are 
returned.
    China has long sought an extradition treaty with the United 
States. I would in no way advocate an extradition treaty, but I 
think it should be made very clear to China that we will not 
even talk to them about an extradition treaty as long as 
prisoners like Sandy are being held.
    Congressman Green, I thank you very much for the resolution 
that you have filed. This is House Resolution 153. I fully 
support that resolution and I hope that the full House will 
support that resolution.
    I would say also that another consideration that has come 
to me since I look at what could happen if Sandy is put in 
prison. There is forced labor in prison and the forced labor is 
used to manufacture products that are frequently exported to 
Western countries, including the United States. Some of these 
products are things that would horrify us. Christmas lights? 
For crying out loud. Manufacturing Christmas lights with slave 
labor is a horrifying thought.
    The fact of the matter is that we really do not do anything 
to try and police that, and to me that is unconscionable. I 
think that the American people would have a thought of slave 
labor being used to make Christmas lights and they would say, 
we should do something about that, and by God, we should. There 
should be penalties for companies that import things using 
prison slave labor. That should be illegal and there should be 
serious penalties for it.
    Representative Green. One additional question. Mr. Gillis, 
you have presented much evidence to support your wife's 
innocence. Would you kindly, if you would, please, just give us 
some indication of empirical evidence that you have with 
reference to where she would have been at the time these 
incidents are alleged to have occurred?
    Mr. Gillis. Okay. Very good. So in 1996, the Chinese are 
accusing her of having gone on two spy missions to China. I 
mentioned that we have her passport that shows she had no 
travel to China. I also have a response to a FOIA [Freedom of 
Information Act] request from Customs and Border Control that 
shows she had no international travel of any kind in 1996. I 
have Sandy's pay stubs from her job at the Houston Police 
Department that show that she was on the job and had only like 
11 hours of time off during one of these supposed travel 
missions to China.
    I have receipts and credit card slips signed by Sandy in 
Houston at the time she was supposedly on a spy mission. I have 
Sandy's appearance and mention in a local newspaper article 
during that time in question. She was doing an event with Sam 
Houston Race Park and her name was mentioned, her photograph is 
in that article, and it was supposedly while she was in China 
on a spy mission.
    Sandy was also an officer in the Texas Asian Republican 
Caucus. She was actually a presenter during the Statesman of 
the Year program for that organization during one of these 
supposed spy missions. I have also received a response to a 
FOIA request from the FBI indicating that Sandy did not appear 
in any FBI files, which means that she was not associated with 
the agency.
    Earlier was mentioned the hack of the OPM [Office of 
Personnel Management] database. One of the things that was 
stolen from that database is the background investigation for 
every single FBI officer that has ever served. The fact that 
that happened meant OPM put a process in place where you can 
find out, did you have any data stolen. So I put in a request, 
and Sandy had no data that was stolen as part of the database 
hack. That in itself also proves that Sandy was never someone 
who worked for the FBI.
    So these are a few of the things. I have more, but these 
are some of the most relevant. I think it's quite clear Sandy 
was not an FBI agent. Sandy was not there on a spy mission.
    Representative Green. Thank you, Mr. Chairman.
    With respect to China, I would simply say this. We have 
respected the sovereignty of the nation of China, but I also 
believe that it's time now for the nation of China to respect 
the rights of an American citizen, and let's get Sandy brought 
home as quickly as possible.
    I yield back the time, Mr. Chairman.
    Chairman Rubio. Thank you, Congressman. Thank you for being 
here today and for your advocacy on this important issue.
    We welcome Senator Young to the Commission. We welcome him 
to this meeting. I just want to make a note, at about 3:55 or 
so I will have to leave. So I am going to let him do his 
questions and I've got a few more. I want to have a few minutes 
to talk to all of you, and then I have to go to the floor and 
speak on another pressing human rights challenge in the world, 
which is Russia. We have our hands full these days. We have no 
shortage of human rights violators on the planet.
    Senator, welcome to the Commission. I recognize you for 
questions.
    Senator Young. Well, thank you, Chairman. Thank you for 
your leadership on this matter. It is also good to be here with 
my former colleague on the House side, Mr. Green. So, I look 
forward to our continued work together on these issues.
    Thank you all. Thanks for your testimony. I arrived a bit 
late. Mr. Gillis, I found your testimony, as I heard it, 
compelling. Thank you so much for delivering a basketful of 
constructive policy proposals that we might adopt as we think 
critically about how to best help out Sandy and others 
similarly situated, or who might be similarly situated in the 
future.
    I recently convened a group of several Senators here on the 
Hill and the occasion was the release of a task force report. 
Some of you may be familiar with it. It was conducted jointly 
by Asia Society Center on U.S.-China Relations and University 
of California San Diego's 21st Century China Center.
    The task force concluded that the Chinese Government has 
taken ``steps to more severely restrict, and in some cases 
block, U.S. think tanks, non-governmental organizations, media 
outlets, and Internet companies from operating freely in China, 
while their China counterpart organizations and firms operate 
with complete freedom and in growing numbers here in the United 
States..''We may well have some of those entities present and 
among us here today.
    So on one hand, U.S. scholars, correspondents, NGO 
staffers--the list goes on and on--are selectively denied 
visas, yet we welcome, come one, come all. So the task force 
argues that this has created an increasingly imbalanced 
situation.
    Mr. Mann, in your prepared remarks, I know that you 
discussed the issue of reciprocity. As I heard Mr. Gillis 
rattle off some things, one could construe that some of those 
specific recommendations fall within the ambit of reciprocity.
    But maybe I could just get thoughts that any of you might 
have about the report's assessments from the task force 
regarding lack of civil society reciprocity from China, and 
what do you think the United States should do about it?
    Mr. Mann. Well, Senator, I think in various ways each of us 
has been talking about reciprocity and I think it should be a 
very high priority now. There was an argument in the past that 
is purported to be enlightened, but I just thought was wrong-
headed--that we should not insist on reciprocity because we 
want to grant China as much information as possible about our 
own society. That was the argument.
    The response to that is we are denying ourselves access to 
information about China because if we do not insist on equal 
access, we learn less about China, which is often what the 
Chinese Government wanted in the first place. I would point out 
that China understands the concept of reciprocity extremely 
well. It has been actually part of our relationship since the 
very beginning. In a diplomatic context, when we want a 
consulate and China wants a consulate, we trade. We have the 
same number of consulates, they get opened at the same time.
    On intelligence, if you go back really to the early 1970s 
when each country opened a liaison office before diplomatic 
relations, each got one acknowledged--publicly acknowledged--
intelligence officer. We have had reciprocity all the time in 
diplomacy, but we need to extend it now well beyond diplomacy.
    Senator Young. Do any of you have anything to add? I 
thought that was helpful to me.
    Ms. Richardson. One of the most interesting aspects of the 
debate around China's foreign NGO management law was the 
breadth of people who pushed back against it. Normally, there 
are very specific constituencies that object to certain 
proposed Chinese law and they tend to be quite narrow. I lost 
track after the Association of Southwestern High School 
Marching Bands called us asking for our views. We got called by 
museums, we got called by business groups. The response was 
broad and horrifying.
    To be fair, I think these were communities that were, for 
the first time, facing the prospect of trying to engage with 
China under the same kinds of restrictions that Chinese NGOs 
have had to put up with years: scrutiny by the police, being 
raided, having their financial transactions scrutinized. These 
are organizations that I think for a long time have seen 
themselves as being a real ballast in the bilateral 
relationship.
    Is the right answer to either somehow limit U.S.-based NGOs 
or academic institutions or journalists, all the kind that we 
want to be in China and demonstrating the good work that they 
do? Is the right answer to that--are limitations on them to 
impose limits on Chinese Government-affiliated NGOs to operate 
here? No, I don't think that's the right answer. I don't think 
the right answer is for the United States to limit those kinds 
of groups from coming here.
    I do think the right answer is for the U.S. Government, the 
Congress, the administration to do that much more to welcome 
non-government Chinese views into everything, from policy 
discussions to hearings, and give those voices recognition.
    Senator Young. Do you mind if I interject at that point?
    Ms. Richardson. No.
    Senator Young. Mr. Mann, could you respond to Sophie's 
seemingly different perspective on this?
    Mr. Mann. I respect, again, her point of view. I do think I 
am, I admit, thinking mostly of scholarship and journalism. I 
think that at this point we would be more helped by insisting 
on reciprocity.
    Senator Young. Other thoughts?
    Mr. Wessel. If I could, just quickly. I also fully 
understand what Ms. Richardson says, and we do not want to ever 
wear the hat of our adversaries, if you will. But there are 
activities the Chinese are involved in in our own country, 
whether it's the Confucius Institutes, whether it's the 
Thousand Talents programs, whether it's any of a number of 
bilateral exchanges which are usually lopsided which do not 
advance not only our human rights and democracy concerns, but 
our increasing intelligence and national security threats.
    If one talks to our law enforcement or intelligence 
agencies, you will find a great deal of information about those 
rising threats. You've seen it in cyberintrusions, but it also 
exists in human intelligence, et cetera.
    I think we have to have an evaluation of what is going on, 
press the Chinese, as we are, in human rights and in individual 
cases, but also the need to have more openness in the dialogue, 
and that includes those who are coming here to take advantage 
of all that we have to offer.
    Ms. Richardson. May I just follow up with that?
    Senator Young. Oh, absolutely. Please.
    Ms. Richardson. Just to clarify, I want to be very clear, 
we absolutely support the United States, for example, arguing 
hard for access to China for all manner of American journalists 
and scholars. We think that's extremely important. Also, we 
certainly agree with the idea that if there are Chinese 
entities here that present some kind of threat, obviously those 
need to be dealt with in accordance with the law.
    I do think, though, for example, the recent brouhaha about 
whether the Dalai Lama should indeed be the commencement 
speaker in southern California this spring, there's been quite 
an uproar about this. The school has stood firm, which is 
great.
    They've made the right decision, and in the face of real 
objection, particularly by the Chinese Students and Scholars 
Associations in the area, to having him as the commencement 
speaker. I think in that, the school has done the right thing 
in defending its choice and demonstrating what real academic 
freedom is.
    I think the organizations that are objecting are really 
shown clearly to be obviously what they are, which is vehicles 
for Chinese political interests. They're not independent 
organizations. I think letting Americans see that, or letting 
the world see that, has a certain utility.
    Senator Young. I want to be respectful of the Chairman's 
time. I honestly can't see the clock under the klieg lights 
here, so I do have another question.
    Chairman Rubio. It's 3:49. Go ahead.
    Senator Young. All right. Congressman Wolf--I wasn't here 
for his testimony earlier, so I don't know whether he spoke to 
his recent Washington Post op-ed where he discussed the 
Department of Justice, their IG report which they released last 
September related to the update of the Foreign Agents 
Registration Act.
    Congressman Wolf argued in that piece that FARA should be 
updated to consider the role of foreign censorship and 
influence in U.S. media ownership. Of course we want to 
carefully respect our First Amendment freedoms. Some of you 
spoke to that or alluded to that moments ago. But there is this 
question whether foreign media operations in the United States 
should be covered by disclosure and reporting requirements, as 
well as Federal civil investigative demand authority.
    In his prepared testimony, Congressman Wolf specifically 
argues that FARA should be bolstered to ensure that Chinese-
funded public opinion and advocacy efforts in the United States 
are being appropriately monitored and reported. I suppose one 
could apply this to other areas. We have got a very popular 
television station out there, RT, a different country, 
different scenario. It's Sputnik, another outlet. So what's 
your assessment of Congressman Wolf's proposal?
    Mr. Wessel. First of all, I think the Congressman raises a 
number of important issues, as the IG report did, and goes to a 
more troubling problem that we are facing here, which is 
Chinese influence in a number of ways into our political and 
public policy system. A major Chinese entity was a sponsor of 
the Former Members of Congress dinner two years ago.
    There are a number of other activities that are going on, 
seemingly under broad lobbying statutes, but much of it goes to 
basic influence gathering. As I think Jim indicated earlier, 
the question of inserts in local papers, that there should be 
full disclosure and recognition by the public that these are 
propaganda efforts.
    They are designed to influence the outcome of our opinions 
and our public policies in a way to advantage a different 
country. People can then determine how best to assess that and, 
if there are additional security risks, as I mentioned with 
Confucius Institutes and other efforts, that we take that 
appropriately.
    Senator Young. So is sunlight the best disinfectant? That 
seems to be, in summary fashion, what Mr. Wessel said. 
Affirmative nod by Ms. Richardson, let the record show.
    Mr. Mann. I would add, actually, this is not like barring a 
news outlet from operating or anything else, it is simply a 
matter of disclosing the state funding. So this is not a 
restriction of any kind on speech, it's requiring the 
disclosure--how different is it from requiring political 
figures in this country to make public their financing?
    Ms. Richardson. Yes. I'll just add to that, that President 
Xi is now regularly in the habit of visiting the news rooms of 
all of the state media and telling them--and this fact is then 
broadcast--that their function is to serve the interests of the 
Party, both inside and outside the mainland. So I think it is 
not even--I would actually go a step beyond Jim, that it's not 
just about the financing, but the explicit political imperative 
that the so-called media outlets serve.
    Mr. Wessel. If I could just briefly add, I believe it was 
Mr. Wolf who also raised the issue of Hong Kong. We have seen 
over the last years self-censorship by many of their papers 
because of influence of, whether it's ad dollars from Beijing, 
et cetera, so the pervasive influence of this does have an 
impact on the issues before this commission of human rights, 
democracy, and freedom, and we have to make sure that there is 
an open and free voice at all times.
    Senator Young. Thank you all.
    Chairman Rubio. And so we were scheduled to finish here 
very soon, but I did want to make a couple of points. First of 
all, I want to thank all of you for being a part of this. This 
is extraordinarily useful and I think it serves as a real 
catalyst to get more of our colleagues engaged in Sandy's case 
and in the broader context. With so much discussion going on 
about Russia, this is, in a different way, equally important.
    I want to reiterate what I said to the first panel, this is 
not about the people of China with whom we have tremendous 
respect and affection and want a good relationship with.
    I want to basically summarize a couple of points. The 
first, is this Commission was actually created in the aftermath 
of the WTO accession to ensure that there was a mechanism for 
monitoring the notion that an economic engagement and welcoming 
China into the nations of the world and evolving the economy 
would also lead to democratic and political opening.
    In fact, what we have learned is that what it has done more 
than anything else is it has turned a poor totalitarian state 
into a rich totalitarian state, and at the expense, often, of 
American industry and American principles when it comes to free 
speech and the like. I think that is an important point to 
raise because there is this notion amongst those in the Chinese 
Communist Party that our goal is to contain them. That is just 
not accurate. I do not feel that way.
    I think most Americans would welcome another large, 
powerful nation to shoulder some of the international burdens 
that we face, but not if that nation's government has views on 
human rights and the dignity of all people that are in direct 
conflict with our founding principles and what we believe are 
the natural rights of all men and women on this planet, which 
is why it is so important that Americans remain engaged in the 
world and that human rights remain a critical component of our 
foreign policy. Realpolitik doesn't work. It always backfires 
in the end, and I believe will do so again if that is the route 
that we pursue in the 21st century.
    The one open question I have is about Sandy, and that is, 
the Chinese know she's not a spy. They are not a third world 
intelligence agency, they are a first-rate intelligence agency. 
Do you have any theory as to why they chose her, out of all the 
people that had to travel, out of all the American citizens 
that go in and out? Why her?
    Mr. Gillis. Yes. So right now there's all sorts of witch 
hunts going on. If you're not one of Xi's buddies, you can find 
yourself in all kinds of trouble. It's been widely reported 
that a lot of the anti-corruption campaign is also specifically 
targeting enemies of President Xi.
    Over the years, Sandy has worked with many different people 
in China and in many different governmental levels and has met 
a lot of people. When you meet a lot of people you can't really 
know who some of them are friends with. It is very possible 
that some people that Sandy has met from very long ago, because 
they are talking about things from 20 years ago--it is very 
possible that some people that she met 20 years ago are on the 
outs and have been thrown into horrific detention and torture 
and have given up Sandy's name. It is very possible. I mean, 
this sort of thing is happening quite a bit.
    We do not see it so much in the outside world, but it is 
taking place in a massive way inside China. My suspicion is 
that these are as a direct result of people that she knew 20 
years ago, which is why there are no claims that she has done 
anything more recently.
    I would go a little bit further than that, too, as to the 
fact that they know she's not a spy. I mean, the fact of the 
matter is that Sandy had almost no involvement in Nanning. As 
far as I can tell, she visited one time, whereas she had been 
to Guangdong Province more than 30 times. I think that if, at 
the national level, State Security felt that Sandy was a spy, 
you would have heard about hundreds of Chinese being arrested 
as a result of that and there are none.
    Chairman Rubio. Well, I appreciate all of you being here. 
The record will remain open for 48 hours. Without objection, I 
will submit for the record testimony provided by several non-
governmental organizations that have been working on this 
issue. I thank all of you, again, for being a part of this 
today. We will remain engaged with you. We are going to 
continue to meet. We are going to continue to work on all the 
issues discussed here, and others, in the months and weeks to 
come. I thank you all for being here.
    With that, the hearing is adjourned.
    [Whereupon, at 3:58 p.m. the hearing was concluded.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Hon. Frank R. Wolf

                             march 1, 2017
    I would like to begin by thanking Chairman Rubio, Chairman Smith 
and the Members of the Congressional-Executive Commission on China for 
convening this important hearing on the consequences of the accession 
of China to the World Trade Organization and its impact on human 
rights, religious freedom and our security.
    This Commission plays a critical and unique role in conducting 
necessary oversight and promoting human rights, religious freedom and 
the rule of law in China. I know that I am not alone when I say that 
your work is invaluable.
    I also want to recognize your outstanding staff, including Elyse 
Anderson, Paul Protic and Scott Flipse, who are some of the finest 
staff I have worked with during my time in Congress.
    I also want to recognize the Democratic Leader, Nancy Pelosi, who I 
am pleased to join here today, for her long-standing support for 
Chinese dissidents and the people of Tibet and for her leadership 
during the annual debate surrounding Most Favored Nation trading status 
for China. We both vigorously opposed granting China Permanent Normal 
Trade Relations, absent preconditions. I wish our concerns had not been 
born out, but as today's hearing will no doubt explore, the proponents 
of this approach can hardly claim that China today is more free and 
less repressive than it was 15 years ago.
    This is not a partisan issue, as we demonstrated in our efforts in 
the late 1990s, and our country is stronger, and dissidents worldwide 
are bolstered, when both parties and their leadership take a principled 
stand for human rights and religious freedom.
    This topic could not be more timely, as evidence continues to show 
that the government of China has leveraged the wealth and economic 
growth that accompanied WTO accession to become more corrupt, more 
repressive, and more dangerous than anytime in modern history.
    China has also become increasingly belligerent and hostile in its 
actions in the Spratley islands to disrupt peaceful navigation of the 
seas, and has led a campaign of unprecedented cyberattacks against the 
U.S. government--including Members of Congress--and American companies.
    In fact, it's stunning how little we discuss the Chinese 
cyberattack against OPM just two years ago that led to the most 
sensitive information about millions of Americans and their families 
being compromised. Or their attacks on U.S. healthcare records and 
airline travel records. Or the theft of intellectual property that is 
literally bankrupting American companies and costing us jobs. The 
American people, and the U.S. government, should be more outraged by 
these actions.
    Prior to the passage of PNTR in 2000, there was much debate in 
Congress and the media as to whether granting such status would help 
China become a more open and free society, leading to greater rights 
protections for its long-oppressed people and improvements in rule of 
law.
    It's interesting, in retrospect, that just ten years after the 
world was shocked by the brutal crackdown against the Tiananmen 
protesters, a school of thought took root which argued for increased 
trade and economic ties--as opposed to sanctions and a tough line.
    The push for PNTR was borne, I believe, of wishful thinking rather 
than evidence or a genuine understanding of the Chinese Communist 
Party's goals and objectives.
    Rather than extend to the ``Butchers of Beijing'' the successful 
policies of the Reagan Administration that helped bring down the Soviet 
Union, a coalition from the business community, academia and others in 
government argued that the Chinese regime was different and could 
change, if only it was provided an opportunity to grow its middle class 
and wealth.
    The state of freedoms in China today, after so many trillions of 
dollars in wealth have been transferred to the small ruling class that 
controls production, is well summarized in the most recent report by 
the United States Commission on International Religious Freedom 
(USCIRF), stating:

        ``During the past year, the [Chinese] government increased its 
        targeting of human rights lawyers and dissidents, some of whom 
        advocated for religious freedom or represented individuals of 
        various beliefs . . . authorities across China undertook a 
        sweeping dragnet rounding up lawyers and human rights 
        defenders, including religious freedom advocates, with nearly 
        300 arrested, detained or disappeared. Many of these 
        individuals came under government suspicion precisely because 
        they chose to represent politically-undesirable religious 
        groups, such as Uighur Muslims, unregistered Christian leaders 
        and members, and Falun Gong practitioners.''

    A cursory glance at headlines from the past few weeks provides 
another indication that the situation continues to deteriorate:

                ``Uyghurs Are Told to Confess Political `Mistakes' in 
                Mass Meetings,''
                ``Tibetan Pilgrims Barred From Kirti Monastery by 
                Chinese Police,''
                ``Christian Rights Lawyers Tortured in China,''
                ``Chinese Christians Persecuted by Party Nationalism.''

    Or there is the Washington Post piece from January 21st, about the 
Chinese lawyer, Li Chunfu, who was imprisoned in secret detention for 
500 days and brutally tortured and drugged. Since his release he has 
been diagnosed with schizophrenia as a result of what he experienced 
while in prison.
    The irony is that due to the great wealth, increased economic 
interconnectivity and international influence that China was been able 
to achieve in the last 15 years, the U.S. has less leverage than it 
once did to push back against these abuses.
    However, it doesn't mean that we can't--and shouldn't--use every 
lever we still have to address the egregious human rights violations of 
one of the most repressive regimes in the world.
    I want to close with several recommendations, actions that the 
Congress and the Administration can take this year to improve this 
situation:

    First, we need more clear and unambiguous resolutions and 
statements from this Congress and the Trump Administration about our 
unwavering commitment to human rights, religious freedom and rule of 
law in China.
    For example, Congress should immediately take action to rename the 
plaza in front of the Chinese Embassy in honor of the imprisoned Nobel 
Peace Prize Winner, Liu Xiaobo. I originally offered this successful 
amendment on a House appropriations bill before leaving Congress, and 
the Senate passed a stand-alone resolution authored by Senator Cruz 
late last year. The effort needs to start anew in this Congress and 
hopefully the Trump Administration will be receptive unlike its 
predecessor.
    The Administration should also make full use of the new authorities 
granted under the Global Magnitsky Act to sanction and restrict the 
travel of Chinese government officials perpetrating these egregious 
human rights abuses. Given the immense demands on limited U.S. foreign 
assistance dollars, the Congress and the administration should ensure 
that any assets seized under this law involving Chinese authorities are 
spent on human rights and religious freedom promotion and advocacy in 
China.
    Second, much more must be done to fight Chinese Internet censorship 
by putting pressure on agencies such as the BBG to increase the 
allocation of funds towards programs which prioritize the circumvention 
of the internet firewall. Over the last few years the budget for such 
programs has decreased, from $25.5 million in FY 2014 to $12.5 million 
in FY 2017. If we're serious about fighting Chinese censorship, our 
budget should reflect it. The Chinese government could not be more 
serious . . . they spend million annually on fortifying the Firewall.
    Finally, we must remain vigilant against efforts by the Chinese 
government and state-directed and owned companies to take advantage of 
the open nature of the U.S. system to inappropriately lobby and shape 
public opinion such that human rights violations, censorship and other 
troubling actions are effectively normalized, relativized or altogether 
glossed over. We have seen numerous examples of this, including a 
recent series of acquisitions of U.S. media companies that would 
effectively make them subject to state censorship rules in Beijing.
    Last fall, I authored an op-ed in the Washington Post where I 
detailed these concerns and advocated for an update to the Committee on 
Foreign Investment in the United States (CFIUS), to better address the 
types of transactions that impact cybersecurity, sensitive financial 
services and soft power--such as Internet and media ownership in the 
U.S.
    I have been encouraged by the great work done by Congressman 
Pittenger and his colleagues to have GAO review possible updates to 
CFIUS this year, and also support legislation that will soon be 
introduced by Senator Cornyn to advance some reforms.
    We also need to bolster the Foreign Agents Registration Act (FARA), 
which I also addressed in the op-ed, to ensure that Chinese-funded 
public opinion and advocacy efforts in the United States are being 
appropriately monitored and reported.
    The Justice Department's Inspector General released a very 
important report last Fall making recommendations on updates to this 
law, including closing a range of loopholes governments like China use 
to avoid disclosing their funding.
    In closing, I appreciate the opportunity to testify today and this 
Commission's important work. While the U.S. government made a critical 
error in extending PNTR to China without real commitments--and 
enforcement mechanisms--on human rights and religious freedom, it's 
never too late for us to redouble our efforts. We can commit anew to 
using all of the economic, diplomatic and security tools at our 
disposal to send a clear signal that America remains committed to the 
fundamental principles laid out in our founding documents--documents 
which former President Reagan argued represented a ``covenant with all 
of mankind'' to include the imprisoned Tibetan nun, the harassed 
Christian house church pastor and the tortured Chinese rights lawyer.
                                 ______
                                 

                Prepared Statement of Michael R. Wessel

                             march 1, 2017
    Mr. Chairman, Members of the Commission. It's an honor and a 
privilege to appear before you today as we evaluate the past, and 
assess the future of China's approach to human rights and the impact of 
our policies.
    I am a Commissioner on the ``other China Commission''--the US-China 
Economic and Security Review Commission. While we have different 
mandates, our two Commissions are united in the goal of improving the 
lives of the American people, and the people of China. Let me make 
clear that the views I express today are my own.
    As a former Congressional staffer who worked in the House for more 
than 2 decades, let me start with my conclusion, as I know the demands 
on everyone's time. Promoting human rights and the rule of law isn't 
just the right thing to do, it is critical to our economic and national 
security interests. These issues are inextricably intertwined.
    The failure by the last two Administrations to hold China 
accountable has essentially granted China a license to steal--our jobs, 
our economic strength, our national security and the rights of their 
own people. From human rights to intellectual property to the Law of 
the Sea, China has ignored international norms and rules essentially 
without consequence. The world is less safe, less secure and human 
rights are increasingly at risk because of China's refusal to be a 
responsible stakeholder and our own government's refusal to hold them 
accountable for adhering to the rule of law and the protection and 
advancement of human rights.
    Our two Commissions were created in conjunction with Congress' 
consideration of the grant of Permanent Normal Trade Relations (PNTR) 
with China that paved the way for China's entry into the World Trade 
Organization in 2001. A little over fifteen years has passed since 
China's entry and, in my opinion, the proponents of PNTR got it wrong. 
For many of the proponents, their optimism and enthusiasm has turned 
into pessimism and realism about China's future path. These concerns 
are increasingly voiced by the business community, who once saw China 
as the avenue for enormous profits and opportunity. The harsh reality 
of China's approach to foreign businesses has been publicly highlighted 
in the most recent report of the American Chamber of Commerce in China 
which found that 80% of businesses felt less welcome than before in 
China.
    But, beyond the failure of China's market to yield the profits that 
were expected, China's entry into the WTO was supposed to bring with it 
a new, and increasing, respect for the rule of law. Businesses thought 
that membership in the WTO would help create a foundation that would 
yield greater certainty about how laws were promulgated and 
implemented. Time after time, however, they have confronted a system 
that is opaque, unfair and discriminatory.
    In the short period since its accession to the WTO, China has 
become not only a manufacturing powerhouse, but an increasingly tough 
competitor in advanced sectors. Our nation now runs an annual trade 
deficit with China in Advanced Technology Products exceeding $110 
billion. What started with toys and textiles is now computers, 
aerospace equipment and other goods at the leading edge of the 
competitive landscape we face.
    Almost half--46%--of China's exports to the U.S. emanate from 
foreign-invested enterprises. China has proven to be a significant 
export platform for foreign businesses rather than the destination of 
our exports to their consumers. China isn't interested in free trade, 
it is interested in winning the economic competition at all costs.
    There has been a natural evolution of China's approach. It started 
with Made in China, where China provided incentives for foreign 
companies to locate there to produce their products. Then they moved up 
the ladder to Made with China, and approach that focused on joint 
ventures and other ways of getting foreign firms to help teach China 
how to make the products that their consumers, and ours, were hungry 
for. Now, it's Made by China, where China's government is squeezing 
foreign firms out of the market, especially as growth slows, to promote 
the interests of indigenous Chinese firms.
    China is quite public about all of this. It's 13th Five Year Plan 
identified a broad range of sectors where China wants to be the world 
leader. Separate policies such as China 2025 identify how China wants 
to be among leaders in advanced manufacturing of high technology by mid 
next decade. More than $1.5 trillion has been allocated to help ensure 
the success of the latest Five Year Plan.
    China's discriminatory and mercantilist approaches have ranged from 
forced joint ventures, required technology transfers, performance 
requirements, standards setting and a variety of other approaches to 
rob our companies of their technology, their know-how while 
strengthening China's competitive posture at the same time.
    We have seen foreign firms and their staff forced to deal with 
everything from accusations under the State Secrets Law for publishing 
market information to enforcement of China's relatively-new Anti-
Monopoly Law in ways apparently discriminatory to foreign firms. China 
has used its laws to try and force our firms to provide the source 
code--their crown jewels--to gain access to the market.
    China has enhanced its power, and advanced its economy through 
overt and covert mechanisms. When they need something that they can't 
procure through legal means, they often turn to illegal means. These 
actions have essentially gone unchallenged, despite high-level 
attention in the Obama Administration.
    Leaders in the manufacturing sector have long complained about 
China's currency manipulation and the impact it has had on their 
companies. Indeed, the Economic Policy Institute estimated that 
currency manipulation has contributed to the loss of millions of jobs 
(an estimated 3.4 million jobs between 2001 and 2015) and our overall 
trade deficit with China.
    Despite broad agreement in industry, and passage of legislation in 
each House of Congress that would make currency manipulation subject to 
our countervailing duty laws, Administration after Administration has 
refused to act. We are all waiting to hear what the current 
Administration will do on this critical issue.
    Indeed, almost 2\1/2\ years ago, the US Attorney for the Western 
District of Pennsylvania, David Hickton, obtained an indictment against 
five hackers from the People's Liberation Army for their intrusions 
into the computer networks of the United Steelworkers, Alcoa, US Steel, 
Allegheny Technologies, Westinghouse and SolarWorld. Today, those five 
hackers may not be able to vacation in the U.S., but for China, there 
has been no other penalty. Arguments and foot dragging in the 
Administration, despite the valiant efforts of some, have simply 
empowered and emboldened the Chinese.
    Intellectual property theft is rampant--both in terms of U.S. firms 
doing business in China and those operating within our borders. A very 
conservative estimate by the Intellectual Property Commission several 
years ago identified the loss at more than $300 billion a year. That 
probably represents just a portion of the damage inflicted on U.S. 
companies on an annual basis.
    Support for China's entry into the WTO, via the grant of PNTR, was 
based on a faulty premise: Western ideals of ``reform'' and rule of law 
are very different than those of the Chinese leadership. Too many here 
heard what they wanted to hear. In part, they didn't listen carefully 
enough. In part, they failed to recognize the unique characteristics of 
the Chinese system.
    One area of Chinese mercantilism deserving particular attention is 
the massive buildup of industrial overcapacity in a broad array of 
sectors ranging from steel to aluminum to chemicals to shipbuilding, to 
paper and solar and a number of others. China continues to expand its 
capacity despite, in the case of steel, for example, the Chinese having 
more than 400 million metric tons of productive capacity beyond what it 
needs domestically. They continue to subsidize their producers, dump 
their products in our and other markets, and jeopardize our economic 
and national security. Of course, China is not bound by market 
economics, most of their companies don't have to turn profits and the 
goal is maintaining domestic harmony and the power of the Communist 
Party leadership by keeping their people employed.
    At the end of the day, the Chinese economic system is not truly a 
market-based system. The goals, are designed to strengthen the state 
and the party. As Thilo Haneman of the Rhodium Group recently stated at 
a hearing of the Commission I serve on, ``China's state-dominated 
financial system and the lack of rule of law means that state 
involvement can be pervasive, even if a firm is nominally privately 
owned. China wants to be designated as a Market Economy under U.S. 
trade law, which would proffer significant advantages to their 
companies in terms of how they are treated, despite continuing 
subsidies and dumping. But, it is impossible to separate the actions, 
policies, intervention and support of the state in looking at how 
Chinese companies ``compete''.''
    It is critical that China know that the U.S. will not grant market 
economy status anytime in the near future. Our underlying statutory 
provisions would preclude that. As the annual report of the U.S.-China 
Economic and Security Review Commission indicated in its latest report,

        ``A review of the U.S. statutory test for determining whether 
        an economy can be classified as a market economy--including the 
        extent to which the currency is convertible, the extent to 
        which wage rates are determined by free bargaining between 
        labor and management, the extent to which joint ventures or 
        other investments by foreign firms are permitted, the extent of 
        government ownership or control of the means of production, and 
        the extent of government control over the allocation of 
        resources--reveals that China is not currently a market economy 
        and is not on the path to become one in the near future.''

    The European Union has also taken a stance against the broad grant 
of Market Economy Status to China. In December, China indicated that it 
would pursue actions against both the EU and U.S. for their failure to 
automatically confer such status. Regrettably, the EU has reportedly 
refused to cooperate with the U.S. in a joint response strategy to 
China's actions potentially allowing China to pit the U.S. and EU 
against each other. A combined and coordinated response would yield the 
greatest opportunity for success at the WTO.
    And, while the underlying statutory test as to how China must be 
treated is clear, the fact is that the Administration has broad 
authority to determine otherwise. While it is doubtful the current 
Administration would grant such preferential treatment to China, 
Congress should assert its Constitutional authority over trade in this 
critical area.
    We are seeing China's policies being promoted and advanced through 
its outward investment strategies and acquisitions. Indeed, as part of 
achieving their state goals, the leadership promoted a ``go out'' 
strategy. Major offshore investments by Chinese entities must be 
approved by the state and, of course, any investment by a State-Owned 
Entity is designed to promote state goals. With the advent of new 
capital controls, the scrutiny of outbound investments has increased 
and we should assume that any that are approved directly advance the 
state and CCP's interests.
    Concerns in this area not only touch upon what have traditionally 
been considered national security assets. Take, for example, the 
purchase several years ago of Smithfield Foods, our leading pork 
producer, by a Chinese entity supported by billions of dollars in state 
bank loans.
    For years, U.S. pork producers had been trying to access the 
Chinese market to sell their products. China had virtually closed the 
market to our exports. But, as the income of the Chinese people rose, 
their desire for increased amounts of protein in their diets began to 
exceed domestic supplies. But, rather than open their market to all 
foreign pork products that met their standards, they decided to acquire 
our leading firm. For the most recent year where data is available, the 
statistics show that 97% of all pork exports from the U.S. to China 
were from Smithfield Foods.
    This has repercussions across a broad range of industries and is a 
threat to our capitalist system. If China will not allow U.S. exports 
on a broad basis into their market unless they acquire the underlying 
assets, it adds to the outdated nature of the ``comparative advantage'' 
theory. And, the ability of other U.S. producers, those who aren't 
owned by Chinese firms, to compete in the world marketplace is 
diminished as they will have to compete based on market terms, rather 
than with the assistance of state financing and other benefits.
    This also has implications for the freedom of speech and 
expression. In recent years, Chinese firms have acquired a number of 
U.S. media properties--studios and production companies, for example. 
There have been widespread stories of production companies changing 
story lines, altering filming locations and other activities to curry 
the favor of Chinese censors who have complete control over what films 
may be shown in Chinese theaters. The outright ownership of these 
assets adds to the potential for self-censorship as companies look to 
market their films in China.
    While there have been stories recently of delayed and denied 
acquisitions, we don't know whether this is a short- or long-term 
issue.
    China limits the number of U.S. films that can be shown in their 
theaters. As with pork, are we going to see a majority of films that 
can access their market be those where the studio is owned by Chinese 
investors? That is not only an economic and market access issue, it 
further threatens the ability to share American values with the Chinese 
people.
    Movies are a uniquely American art form. We brought them to life. 
We made them talk. We gave them color. We have used them to highlight 
some of the great moral problems facing society. Our entertainment 
industry is the envy of the world. We must not allow its voice to be 
silenced.
    As Congressman Pittenger identified earlier this year in a letter 
signed by 16 members of congress, silencing our voices in movies does 
have propaganda value and ultimately could impact on our national 
security interests. Before approving other acquisitions, we should 
carefully review what is in our national interest.
    At the same time, the freedom of the press--our press--is under 
attack. China has repeatedly refused to allow access for our news 
providers to their public. Reporters for U.S. news organizations have 
been denied visas. Pressure is put on international news organizations, 
especially those operating in Hong Kong which are most at risk, to 
write favorable stories on Beijing's actions and publishers 
increasingly engage in self-censorship to toe the Party line.
    China's propaganda machine is hard at work. Reuters ran a story 
entitled ``Beijing's covert radio network airs China-friendly news 
across Washington, and the world''. Beijing operates Confuscius 
Institutes at colleges and universities across the country. They 
operate the so-called ``Thousand Talents'' program. All of this 
essentially goes unanswered and unchallenged while it undermines our 
ability to hold China accountable.
    China's refusal to respect the rule of law directly impacts our 
national security interests. While China appears to have become more 
diligent about policing international weapons proliferation regimes in 
recent years, that is not out of concern for world interests, but their 
own. China has been linked to the proliferation of weapons technologies 
that have advanced the nuclear capabilities of Pakistan, for example. 
China is actively promoting arms exports to nations of concern.
    And China's lack of respect of the rule of law has created new and 
lasting security threats in the South China Sea. Although China is a 
signatory to the United Nations Convention on the Law of the Sea, it 
refused to acknowledge the jurisdiction of the Permanent Court of 
Arbitration at the Hague which was assigned to hear the complaint of 
the Philippines on the validity of China's claims in the South China 
Sea. China has continued to reclaim reefs and rocks to create habitable 
islands with military facilities. If their activities continue, 
military experts have indicated that China will soon have the 
capability to assert control of the entire South China Sea and 
accurately target U.S. naval forces with Anti-Ship Ballistic Missiles.
    Proponents argued that engagement would yield expanded rights and 
freedom. They believed that engagement, and China's membership in the 
WTO with its rules-based approach, would bring about reform there. 
China's economic policies and the failure of the U.S. to have a clear, 
consistent and comprehensive response have simply made China stronger. 
Our government's inaction has empowered and emboldened China's 
leadership. The business community's complaints and concerns may have 
come too late.
    And, for the Chinese people, they have seen their hopes of so-
called ``reform'' shattered. Crackdowns on dissent are increasing. 
China allegedly resorted to kidnapping five booksellers when they were 
travelling claiming that they were a threat to the state (check). They 
refused to consult with the Vatican about the choice of church 
officials, naming their own. They are in the process of potentially 
trying to choose the next Dalai Lama, rather than allowing his 
followers to make their own choice. Leaders and followers of the Falun 
Gong have been targeted.
    The list goes on and on and, indeed, this Commission deserves 
enormous credit for documenting, analyzing and disseminating critical 
information that calls international attention to the human rights 
abuses that are occurring daily.
    China PNTR fueled the power of the state, increased America's 
dependence on China's manufacturing products and limited the 
willingness of the business community, and our government, to respond.
    China has repeatedly used this power. Perhaps the best example of 
this is the case of China's export limitations on the export of rare 
earth minerals, products that are critical in manufacturing, technology 
and defense applications. China used its virtual monopoly on these 
materials as a weapon against Japan to back them down during a dispute 
over the Senkaku Islands in 2010.
    While we await an indication from the new Administration on its 
policies and approach to China's economic transgressions and its human 
rights abuses, there are several potential areas that Congress can act 
on. And, as has been the case with China in the past, leadership on 
this issue may very well only come from Congress.
    It was Congress, in the aftermath of the Tiananmen Square Massacre 
that called for sanctions. The Clinton Administration even backed away 
from a voluntary code of conduct for U.S. companies operating in China 
designed to promote human rights. While the Clinton Administration 
fought for Most Favored Nation status for China on a yearly basis, it 
offered no serious approach to confront China. Activism on human rights 
was primarily fostered by Members of Congress who demanded attention to 
the issue. And, it was Congress that demanded the creation of this 
Commission to ensure that, after China was granted PNTR, that the issue 
of human rights would not be ignored.
    And, over the years, and throughout the process, it was Members of 
Congress--people like Representatives Wolf, Smith, Lantos, Pelosi and 
others--who never lost sight of the need to fight for those dissidents, 
detainees and democracy advocates whose lives depended on their 
attention and activism. I'm honored to be seated here with Jeff Gillis 
and want to add my voice of thanks to his for the attention you are 
giving his wife's plight here today.
    Congress must, once again, demand that our values be embedded in 
our policies.
    While there is a broad array of options to consider, let me offer a 
couple of recommendations here today:

        <bullet> Members of Congress, whenever possible, must raise 
        their voices on behalf of those fighting for their rights, 
        freedom and very lives in China. Members travelling to China 
        must make clear to the Chinese leadership, that we will not 
        rest until there is justice for those unfairly and unjustly 
        imprisoned, detained or treated. And, there needs to be more 
        attention on this critical issue more generally, not just 
        associated with potential travel.
        <bullet> Members of Congress must also speak out on the need to 
        preserve the remaining democratic attributes of Hong Kong's 
        system. There has been a continuing erosion of the commitments 
        made in conjunction with the 1997 handover, under the iron hand 
        of Beijing but we must highlight the rights and privileges that 
        are at risk.
        <bullet> Similarly, we must not lose sight of the uniqueness of 
        Taiwan in the context of the recently reaffirmed ``one China 
        policy''. Our responsibilities under the Taiwan Relations Act, 
        and our support for the country, must continue to guide our 
        approach.
        <bullet> We must not lose our ``voice'' in terms of movies and 
        the media. We should use the renegotiation of the Memorandum of 
        Understanding between the People's Republic of China and the 
        United States of America regarding films for theatrical release 
        to try to ensure that access for U.S. films is not limited 
        simply to the products of those companies that the Chinese have 
        purchased. A minimum of 50% of the limit on films covered by 
        the agreement should be allocated to non-Chinese owned firms--
        that's if the Administration negotiators can't open the market 
        completely, which should be the goal. And, we should carefully 
        examine the purchase of our media assets to determine what 
        impact there may be on the independence and strength of the 
        American voice.
        <bullet> We should examine the impact of Chinese propaganda 
        efforts here in the U.S. more closely. And, we should highlight 
        and renew our efforts to open China to our news organizations.
        <bullet> We should also assess China's activities relating to 
        students, researchers and other nationals here in the U.S. and 
        ensure that not only our national security interests are 
        protected, but that we are able to get increasing and equal 
        access to Chinese schools, research institutions and 
        workplaces.
        <bullet> We must begin to seriously address China's 
        protectionist and predatory trade practices. This, of course, 
        is a comprehensive problem. But, for far too long, a majority 
        of complaints that have been lodged and the actions taken to 
        address China's violations of trade law have had to be filed by 
        the private sector. Most, if not all, of the cases that have 
        been filed could have been initiated by the Administration. 
        Failing to do so has undermined our economic and national 
        security and empowered and subsidized the massive expansion of 
        the power of the Chinese Communist Party and its leadership.
        <bullet> As the US-China Economic and Security Review 
        Commission recommended in its most recent report, Congress 
        should enact legislation requiring Congressional approval prior 
        to any change in China's Market Economy Status. That would 
        apply not only to the designation of the entire country as 
        market oriented, or for individual sectors or companies, as has 
        been discussed in the past.
        <bullet> We must include the impact of certain acquisitions of 
        U.S. companies by China on human rights as a consideration in 
        whether to approve a transaction through the Committee on 
        Foreign Investment in the United States (CFIUS). Congressmen 
        Pittenger and Smith just published a piece in the Wall Street 
        Journal that identified the potential threat that might exist 
        if the acquisition of MoneyGram by China's Ant Financial is 
        approved. In their piece, they said: ``the Chinese government 
        is a significant shareholder of Ant Financial . . . Should this 
        transactions be approved, the Chinese government would gain 
        significant access to, and information on, financial markets 
        and specific international consumer money flow. As the Chinese 
        government increasingly cracks down on political, religious and 
        human rights activists, we must fully examine how the Moneygram 
        network may be used by the Chinese government to target these 
        voices.''

    Mr. Chairman, Members of the Commission. I again want to thank you 
for the opportunity to appear before you today and look forward to your 
questions and working with you in the coming days.
                                 ______
                                 

                    Prepared Statement of James Mann

                             march 1, 2017
    Mr. Chairman and members of the Commission:
    Thank you for giving me the opportunity to appear before you.
    In the year 2000, when Congress gave its approval for the entry of 
China into the World Trade Organization, the dominant view in 
Washington was that China's admission would bring changes that extended 
well beyond mere trade and economics. Bringing China into the WTO, it 
was argued, would help open the way for gradual political 
liberalization and the rule of law in China.
    Leaders of both political parties regularly embraced this idea. 
Bill Clinton said trade and economic changes in China would help to 
``increase the spirit of liberty over time . . . I just think it's 
inevitable, just as inevitably the Berlin Wall fell.'' George W. Bush 
declared, ``The case for trade is not just monetary, but moral . . .. 
Trade freely with China, and time is on our side.''
    At the time, I believed this view was wrong. I had been a foreign 
correspondent based in China in the 1980s. Even during what was viewed 
as the era of the reform in China, you could feel the intense and 
growing opposition within the Chinese Communist Party towards any 
significant political change. That resistance to change reached its 
peak with the decision to use violence in 1989 to eradicate 
demonstrations at Tiananmen Square and elsewhere in China.
    Before the vote to admit China to the WTO, there had been a series 
of annual debates in Congress, during the 1990s, over whether to renew 
China's most-favored nation trade benefits in this country. Covering 
those debates in Washington, I was repeatedly struck by the fact that 
proponents seemed to believe they couldn't win the argument by 
justifying trade simply as trade. Instead, they fell back again and 
again on the assertion that trade would open up China's political 
system.
    It was these broad claims about the impact of trade that prompted 
me to write the book ``The China Fantasy.'' In it, I argued that the 
Chinese regime wasn't going to change in the way that American leaders 
said it would--that trade and prosperity were not, in fact, going to 
open up its political system.
    In the book, I laid out different scenarios put forward for China's 
future. One was what I called the ``soothing scenario''--the one 
Clinton and Bush envisioned, that, with growing trade and development, 
China would inevitably open up its political system. A second scenario 
was that China would disintegrate into chaos--a possibility that I 
discounted but that some China specialists were putting forward in the 
decade after 1989. Then there was what I called the ``third 
scenario''--that with trade and growing wealth, China will not open its 
political system at all but simply become a vastly richer authoritarian 
regime. I thought this Third Scenario was the most likely.
    It has now been exactly ten years since ``The China Fantasy'' was 
published. Sad to say, that third scenario I wrote about is exactly 
what we see today: a richer, more repressive China. Indeed, over the 
past few years the Chinese regime has been entering into new types of 
repression--arresting lawyers, severely restricting NGOs, staging 
televised confessions of those who are detained.
    The leadership has fewer outside constraints on what it can do. Its 
security apparatus has become more sophisticated. In fact, what we are 
seeing today is the very opposite of what many leading American 
politicians and China experts predicted at the time China entered the 
WTO: Development and prosperity have yielded a regime that curtails 
dissent and independent political activity more than it did five, ten 
or twenty years ago.
    In fact--and this is important--I think we are now witnessing in 
China a new dynamic. Call it the New China Paradigm, although it might 
also apply in various ways to some other countries, such as Turkey or 
Egypt: In a modern authoritarian society with a sophisticated security 
apparatus, the more prosperous and educated a society becomes, and the 
more there are stirrings from the public towards development of a civil 
society, the more repressive that authoritarian state will become in 
response, in order to prevent possible threats to its control.
    What then is to be done? What options are there for the United 
States government in devising its China policy today?
    There are no easy answers, but I can at least sketch out some 
suggestions.

        1) The first is simply to drop the China Fantasy--to stop 
        assuming that trade and economic advancement will gradually 
        open up China's political system or that political change in 
        China is inevitable. To the extent we want to trade with China, 
        we of course should do so--but with the understanding that the 
        rationale for this trade is simply economic, not political or 
        moral.
        2) Do not refrain from speaking out. The United States should 
        speak out as forthrightly as possible on behalf of human rights 
        and the rule of law in China, as well as the larger value of 
        political freedom and the right to dissent. Doing so not only 
        upholds our own values but also gives recognition to those 
        dissidents and others who are persecuted in China. For example, 
        Liu Xiaobo, the winner of the 2010 Nobel Peace Prize, remains 
        incarcerated in China, yet U.S. officials talk about him in 
        public less and less. It would help if both senior U.S. 
        officials in Washington and our ambassador in China--that is, 
        Governor Branstad, if he is confirmed--would make appeals for 
        human rights and the rule of law a regular, consistent, even 
        insistent part of their public statements.
        3) Insist on reciprocity. The United States should emphasize 
        the concept of reciprocity in virtually all aspects of its 
        dealings with China. What China permits or denies to Americans 
        operating in China should equally be permitted or denied to 
        Chinese operations in the United States. This principle should 
        be applied to business negotiations, to non-government 
        organizations, to the news media. When China penalizes American 
        businesses or the news media, the United States should respond 
        with similar limits on Chinese entities.

    Let me take the news media as an example of the need for 
reciprocity. At the moment the asymmetry has become truly ridiculous. 
In China, American news organizations find their websites blocked; the 
Chinese government denies visas to reporters it doesn't want; there are 
severe restrictions on reporters' access and their travel. Here in the 
United States, Chinese state-run news organizations enjoy the freedom 
to print regular propaganda inserts in American newspapers. China's 
state-run television, CCTV or CGTN as it is now called, not only isn't 
blocked but is allowed full access to the broadcast spectrum.
    There can be no question that China does understand well the 
concept of reciprocity. Over the past 45 years, the principle has been 
applied regularly in formal diplomacy: China got a new consulate in the 
United States when the United States got a new consulate in China. In 
the earliest days of the Nixon opening, when the two countries first 
opened liaison offices in Washington and Beijing, each side was 
permitted to have one recognized and acknowledged intelligence officer. 
It is long past time to apply this principle to business, news media 
and other aspects of the American relationship with China.

        4) Break out of the pattern of personalized diplomacy. My last 
        suggestion involves something less concrete: the very style and 
        nature of the dealings between China and the United States at 
        the very top. In simplest terms, this is a plea to break out of 
        the distinctive pattern of personalized diplomacy that has come 
        to hamstring and limit the dealings between the United States 
        and China.

    Here is the pattern--one that I see repeated by administration 
after administration, and which I've seen signs of in the Trump 
administration's earliest dealings with China. A new team takes over. 
Its leading officials--the president, national security advisor, 
secretary of state--have little or no personal experience in dealing 
with China. So they quickly study up on the past, starting with the 
Kissinger opening. And in one way or another, they decide that China is 
unique, and that the rules and ideas that govern their dealings with 
other countries don't apply in China--that instead you have to deal in 
China secretly, and largely through a single individual inside an 
administration.
    They are encouraged in this notion by Chinese officials, who arrive 
in Washington at the beginning of each administration saying that they 
need a single interlocutor, a high-level U.S. official they can talk to 
and pass messages through. And they are often also helped along, I have 
to say, by a handful Americans such as Henry Kissinger himself, who 
suggests to one administration after another that they need his help 
and they need a single intermediary, namely him. I'm sorry to have to 
personalize this--but the personalization of American relations with 
China is precisely how he carried out diplomacy in the pat and what he 
continues to urge today.
    The result is that whatever U.S. official becomes China's principal 
interlocutor inside an administration--usually the national security 
advisor--is treated as a ``friend of China,'' the person Chinese 
officials regularly go to with one request or complaint after another. 
And then it's not long before this high-level official is calling up 
everyone else in the government, at the State Department or the 
Pentagon, for example--to demand that such-and-such action against 
China must be softened or dropped, that this line in a speech should be 
taken out.
    It's now been a full 45 years since the Nixon opening to China. We 
need a thorough review of American China policy, in light of the many, 
many changes in both countries. At this point, doing things the old 
way, with personalized and secretive diplomacy, does far more harm than 
good. If we care about fostering the abstract rule of law in China, 
then we do not help that cause by falling back again and again on the 
idea that what counts above all is personal relationships.
    I look forward to answering your questions.
                                 ______
                                 

                   Prepared Statement of Jeff Gillis

                             march 1, 2017

         Message to American Business in China: No One is Safe

    Chairman Rubio, Co-Chairman Smith, and Commissioners of the CECC,
    Thank you for this opportunity to testify at this hearing, and for 
the chance to tell Sandy's story.
    Fifteen years ago, there was great optimism by many as China was 
admitted into the WTO. The belief was that if Western Governments 
engaged China in trade, China would learn from the West, not just about 
business, but also about rule of law, property rights, human rights, 
and human dignity. My wife, Sandy Phan-Gillis, was a strong believer in 
engagement with China, and a firm supporter of China's entry into the 
WTO. She has spent her entire career promoting trade and positive 
relations with China. Unfortunately, in terms of human rights, 
admitting China to the WTO has turned out to be a very bad deal. Many 
of China's promises have been broken, especially in the areas of human 
rights and rule of law. That has been clearly shown in my wife's 
detention in China by China State Security.
    The timing of this hearing is important. March of 2017 marks two 
years that my wife, Sandy Phan-Gillis, has spent in detention in China.
    Sandy is an American citizen, a wife, a mother, and a resident of 
Houston, TX for almost 40 years. She was detained by China State 
Security on March 19, 2015 while on a trade mission to China with 
Houston Mayor Pro Tem Ed Gonzalez, to promote business between Houston 
and China. Sandy made this trip in her capacity as a member of the 
Mayor's International Trade and Development Council, and as President 
of the Houston Shenzhen Sister City Association. She was seized one day 
after meetings that she arranged between Houston Mayor Pro Tem Ed 
Gonzalez and Vice Mayor of Shenzhen Tang Jie. Note that Sandy was 
detained by China State Security, China's spy agency, and not by China 
Public Security, China's police force. China State Security is the 
Chinese agency that sends Chinese spies to America to steal US 
government and commercial secrets.
    China State Security used isolation and threats against Sandy to 
keep her travel companions and her family from finding out about her 
initial detention. Her family did not know about her detention until 
after I filed a missing person report with the US Consulate in 
Guangzhou.
    Sandy's first six months were spent in designated-location 
residential surveillance. There she was subjected to solitary 
confinement, torture, and relentless questioning in a torture chair. 
This chair was described as a short 4-legged stool (with no back or 
armrests), and with raised teeth in the seating area. This form of 
torture has been described by other detainees in China as the torture 
of ``sitting on a small stool''. Sandy was subjected to repeated 
threats, including the threats to take away her access to doctors and 
medicine. Sandy suffers from a number of serious medical conditions, 
and threatening to take away her access to doctors and medicine is not 
much different than threatening to kill her. For a time, Sandy was 
denied access to medicine. China State Security used torture to force 
Sandy to make a false confession.
    Sandy was hospitalized twice as the direct result of her horrific 
treatment by China State Security. One of these hospital stays was for 
five days after Sandy had a fear induced heart attack during a brutal 
interrogation.
    Use of torture during designated location residential surveillance 
became so widespread and notorious that the Chinese government 
announced new guidelines for the initiation and oversight of such 
detention shortly after Sandy was moved into a regular jail. Sandy is 
now in Nanning #2 Detention Center, initially under solitary 
confinement, but now with a cell mate.
    Sandy has been denied many of the rights she is entitled to under 
Chinese and International Law. As one example, Sandy, her lawyers, and 
her family have never received a copy of the warrants for her detention 
or her arrest. When pressed to provide these critical legal documents, 
Chinese officials responded that these documents were not required 
since Sandy is a foreigner.
    The Working Group on Arbitrary Detention in the Office of the 
United Nations High Commissioner for Human Rights reviewed Sandy's case 
and determined that Sandy had been arbitrarily detained and that her 
rights had been violated under International Law. The ruling also 
documented some of the violations of Sandy's rights under Chinese Law. 
This is the first time in its history that the United Nations has made 
a ruling that China had arbitrarily detained a US citizen. One of the 
key factors in the UN's determination was the response from Chinese 
authorities, in which they admitted to treating Sandy in ways that 
violated International Law.
    Sandy was not allowed to speak with her lawyer for well over a 
year. She was not charged with a crime for well over a year. For about 
the first year and a half her monthly 30 minute visits with the US 
Consul were supervised by agents of China State Security, the very 
people who tortured her. She still isn't allowed to have unsupervised 
visits with the US consul. After nearly 2 years, there still is no 
scheduled trial date. Sandy still hasn't had a single appearance before 
a Judge.
    Initially we were told that Sandy was being investigated for 
Stealing State Secrets. China has a tendency to call anything it wants 
a state secret, so it really didn't help us to understand what was 
going on. In China's response to the UN investigation on Sandy's 
arbitrary detention, Chinese authorities informed the UN after a year 
of detention that Sandy was being investigating for ``Assisting a Third 
Party to Steal State Secrets''. This is important, because she wasn't 
accused of being a spy, and she wasn't accused of stealing state 
secrets. She was accused of assisting someone else who stole state 
secrets. Just a few months later, Chinese authorities filed charges in 
which Sandy is accused of being a spy for a foreign nation. 
Specifically, Sandy is accused of being a spy for the FBI, which isn't 
even a spy organization.
    Sandy is accused of the following three specific things:

        (1) going on two spy missions to China in 1996 to spy on China 
        for the FBI
        (2) helping the FBI in 1997 to capture two Chinese spies who 
        were sent by China to spy on the US
        (3) helping the FBI in 1997-1998 to turn these two Chinese 
        spies into double agents who would spy on China for the FBI

    In addition to denials from the FBI that Sandy ever worked for 
them, we have a mountain of evidence that these charges are false. 
Below are just a few examples. We have many more:

        (1) Sandy's passport indicates that she didn't travel to China 
        in 1996. There is no China visa, and no entry or exit stamps. 
        Sandy is accused of traveling to China under the guise of 
        ``education'', but Chinese authorities didn't even check to see 
        if she traveled to China that year.
        (2) A response from U.S. Customs and Border Protection to a 
        FOIA request shows that Sandy had no international travel in 
        1996.
        (3) Sandy's pay stubs from her job at the Houston Police 
        department show that she was working full time, with only 11 
        hours of time off during the time of an alleged spy mission in 
        China for the FBI.
        (4) Receipts and credit card slips signed by Sandy show that 
        she was in Houston during the time she was supposedly on a spy 
        mission in China for the FBI.
        (5) Sandy is mentioned in a local newspaper article (including 
        a photo of Sandy) about an event for Houston's Sam Houston Race 
        Park during the time that Sandy was allegedly in China on a spy 
        mission for the FBI.
        (6) Sandy was an officer in the Texas Asian Republican Caucus 
        during the time that she is accused of being a spy for the FBI. 
        During an alleged spy mission to China in September 1996, Sandy 
        was a presenter at TARC's Statesman of the Year award ceremony.

    Additionally, we have the following evidence:

        (7) A response to a FOIA request to the FBI shows that Sandy 
        isn't mentioned in any FBI files. This shows that Sandy did not 
        do any work for the FBI.
        (8) A response to a query to the United States Office of 
        Personnel Management shows that Sandy did not work for the FBI. 
        Anyone who works for the FBI is required to undergo a 
        background investigation. Files for these background 
        investigations were all compromised as part of the OPM database 
        hack that has been widely reported in the media. As such, the 
        OPM has set up a system for individuals to verify if they have 
        had any information that was stolen as part of the OPM database 
        hack. The OPM confirmed that Sandy did not have any data in the 
        hacked OPM database. This indicates that she did not undergo an 
        FBI background check, and did not do work for the FBI. It is 
        widely believed that the OPM hack was done by agents of China, 
        which indicates that Chinese authorities have had this proof 
        themselves for some time.

    The Chinese Foreign Ministry and the Chinese Consulate in Houston 
took steps to block this and other evidence from being legalized for 
several months to keep it from being used at trial. After a media 
campaign by me and some strong action by the State Department and my 
Congressman Al Green, the Chinese Consulate legalized our evidence so 
that it could be used at trial.
    Chinese officials (including the Ministers of Public Security and 
State Security) have been asked repeatedly by Sandy's lawyers and by me 
to provide evidence from Chinese government databases of Sandy's China 
visas, China entries, and China exits. So far, the Chinese government 
has refused to do this, even though concealing such evidence is a crime 
under Chinese law. Meritorious service to China is an important 
consideration under China law. I have asked the China Foreign Ministry, 
the Municipal Government of Shenzhen, and Shenzhen Public Security to 
provide evidence of Sandy's substantial meritorious service to China. 
Thus far, they have refused. Feedback to me from the China Consulate in 
Houston has been that they don't think Sandy is a spy, but they can't 
help in a case involving State Security. China's Ministry of State 
Security is arguably the most powerful institution in China, and every 
other government agency is afraid of it.
    Beyond the hard proof for the defense, there is a great deal about 
the allegations against Sandy that just doesn't make sense. It was 20 
years ago. Some of the allegations are from over 20 years ago.
    At the time she is accused of being a spy for the FBI:

        (1) Sandy worked full time as a Clerk/Typist for the Houston 
        Police Department.
        (2) Sandy had a 9 year old daughter (who is now 30 years old).
        (3) Sandy was operating a side business organizing Houston's 
        Chinese New Year Festival and Houston's Moon Festival, and 
        marketing Sam Houston Race Park to the Asian community in 
        Houston.

    The allegation of spying is in Nanning, a Chinese city that as far 
as I can tell Sandy visited one time (and not during the alleged spying 
timeframe of 1996-1998).
    There are some key issues in Sandy's case that go well beyond the 
arbitrary detention and torture of a lone American citizen, and touch 
on important considerations of the safety of American citizens, 
Homeland Security, and International Law:

        (1) Under China law, you are considered a spy if you join a 
        foreign espionage organization. Part of the evidence against 
        Sandy is a statement by China State Security that the FBI is an 
        espionage organization that spies on China. This statement by 
        China State Security places in jeopardy anyone who has ever 
        actually worked for the FBI. The FBI has a field office in 
        Beijing. Officers there have diplomatic immunity, which offers 
        some degree of protection. However, there would be no 
        protection for any current or former FBI agents in China for 
        vacation or business. The evidence being used against Sandy 
        could be used to pick up anyone who ever worked for the FBI, 
        prosecute them, and throw them in prison for years, just 
        because they had worked for the FBI. If the Chinese government 
        was the source of the OPM database hack (as is widely 
        believed), then they likely have a complete list of FBI 
        employees as of a couple of years ago.
        (2) The allegations that Sandy helped catch Chinese spies, and 
        convert them into double agents for the FBI are false. However, 
        even if they were true, these would be the actions of an 
        American citizen doing lawful (arguably even heroic) work on US 
        soil. China State Security, the Chinese Procuratorate (the 
        Prosecutor), and the Chinese courts are investigating, 
        prosecuting, and trying an American citizen for allegations of 
        violating Chinese law in the United States 20 years ago. In 
        essence, China is claiming the right to enforce Chinese law 
        against anyone in the world, anywhere in the world, at any time 
        in the world. Chinese sovereignty should end at the borders of 
        China. Chinese officials should not be trying to apply Chinese 
        law to an American citizen for alleged 20 year old actions on 
        US soil. If China can arrest and try any American for any 
        alleged violation of Chinese law that occurred in the US, then 
        no American should feel safe in China.
        (3) Perhaps most of all, this:
        Sandy has spent her career encouraging engagement between the 
        US and China, and building positive relations between our two 
        countries. She founded, and for years ran, Houston's longest 
        running Chinese New Year Festival. She served as either Vice 
        President or President of the Houston Shenzhen Sister City 
        Association for over 20 years. She was the HSSCA representative 
        to the Sister Cities of Houston board for over 20 years. She 
        has worked extensively for decades with the Houston Mayor's 
        office, the China Foreign Ministry, the Chinese Consulate in 
        Houston, the Municipal Government of Shenzhen, China, and the 
        Public Security Bureau of Shenzhen. She has introduced hundreds 
        of Americans to China, and hundreds of Chinese to the US 
        (including school kids). She has hosted Chinese dignitaries. 
        She has arranged for Chinese Doctors and Nurses to receive 
        training in Houston. She has arranged for medical care and 
        medicine in Houston for injured Chinese Police Officers. She 
        even helped introduce Houston to a very young Yao Ming when she 
        organized a good will basketball tour of Houston NCAA all-star 
        players. They traveled to China in the summer of 1998, and 
        played a number of games against the China National Team, 
        including its youngest member, teenager Yao Ming. Houston Mayor 
        Sylvester Turner, the Houston Shenzhen Sister City Association, 
        and the Sister Cities of Houston have documented many of 
        Sandy's good works for China and for Houston-China relations. 
        It isn't just one or two pages. It is in all honesty a book. 
        Any Americans considering travel to China should ask themselves 
        if their story is as good as Sandy's. If China State Security 
        can arbitrarily detain and torture Sandy, they can arbitrarily 
        detain and torture any American citizen. If Sandy isn't safe in 
        China, then no American is safe in China.

    Sandy isn't some top secret spy for the FBI. She is a wife and a 
mother, with aging parents (including a father who just had a major 
heart attack). She suffers from many serious health problems such as 
high blood pressure, high blood sugar, and high cholesterol, and needs 
to take 7 prescription medicines a day. Chinese prisoners are required 
to do forced labor manufacturing products for export to the US and 
other countries. Sandy probably would not live long under the rigors of 
forced labor in Chinese prison. If we can't find a way to bring Sandy 
home, she is going to die in a Chinese prison. I would appreciate 
anything that you can do to help keep that from happening. Sandy is in 
a desperate situation, and she needs all the help that she can get.
    In response to repeated pleas by American officials, including, I 
am told, National Security Adviser Susan Rice and President Obama, 
Chinese officials have repeatedly stated that ``all of her rights are 
guaranteed''. However, this is categorically false. Chinese authorities 
do not use the law as a tool for justice. They use the law as a weapon 
when it is convenient to do so, and they ignore it when it is 
convenient to do so.
    Torture is illegal under Chinese law, and confessions obtained 
through torture are inadmissible under Chinese law. The problem is that 
Chinese officials, particularly within China State Security, do not 
follow Chinese law. They regularly obtain confessions through torture, 
as they did in Sandy's case. Chinese authorities are required to 
investigate allegations of torture, and they recently completed the 
investigation of torture in Sandy's case. The investigation was done by 
China State Security, by the very people who tortured her.
    Sandy has been detained for far too long. Where are the 
consequences for China's horrific treatment of an American citizen? 
There has been a lot of talk, but it is time for action. Below are some 
specific policy suggestions:

        (1) Concealing and fabricating evidence are illegal under 
        Chinese law. However, officials of China State Security 
        routinely lie, torture defendants, and conceal and fabricate 
        evidence, as they have done in Sandy's case. Chinese officials 
        who engage in torture, and their family members, should be 
        barred from entering the US. If they own property in the US, it 
        should be confiscated and sold, with the proceeds used as 
        compensation for the false imprisonment and torture of American 
        citizens.
        (2) China has been engaged for some time in the infamous 
        ``Operation Fox Hunt'', in some cases using highly questionable 
        means to track down and bring back alleged Chinese economic 
        criminals who have fled to other countries. The Obama 
        administration cooperated with the Chinese government in these 
        efforts, and returned a number of high priority Chinese 
        economic fugitives, getting nothing in return. In November of 
        2016, the US returned Yang Xiuzhu, China's most wanted economic 
        fugitive, getting nothing in return. China State Security has 
        repeatedly told Sandy that she should encourage the US 
        government to negotiate her release through a prisoner 
        exchange. There is no doubt in my mind that Chinese officials 
        would have been happy to release Sandy for the return of Yang, 
        their highest profile economic fugitive. There are hundreds of 
        Chinese economic fugitives, with assets on the order of 
        billions of dollars. The US government, including the 
        Department of Justice and the FBI, has continued to cooperate 
        with the Chinese government on the return of these fugitives. 
        The FBI even maintains an office in Beijing with a key 
        responsibility of assisting China in these efforts, even as 
        China State Security accuses the FBI of spying on China. All 
        such cooperation should be halted immediately until China State 
        Security drops their claims of spying against the FBI and 
        Sandy, and returns Sandy to the US.
        (3) China has long sought an extradition treaty with the US. I 
        would not advocate for such a treaty. However, we should make 
        it clear that we won't even discuss the possibility of such a 
        treaty while China continues to subject American citizens to 
        arbitrary detention and torture. Release of Sandy and others 
        like her should be a primary condition of entering into any 
        discussions of an extradition treaty with China.
        (4) Congressman Al Green has filed House Resolution 153, 
        calling for Sandy's release. I would like to see full support 
        from the House Foreign Affairs Committee and from the full 
        House for this resolution.
        (5) Recent events have shown that China has become a more 
        dangerous place for foreigners to do business, yet many 
        businesses and individuals remain woefully uninformed about the 
        risks. The State Department should consider implementing a 
        travel advisory for China.
        (6) China continues to use slave labor in Chinese prisons to 
        manufacture goods for export. Some examples are Christmas 
        lights and silk flowers sold by some of America's best know 
        companies. The US should take strong steps to ban the import of 
        products produced by slave labor in Chinese prisons, including 
        strong penalties for American companies that import these 
        products.

    The Chinese government is making a bet that our economies have 
become so intertwined, and that we have become so addicted to cheap 
Chinese products and so obsessed with access to Chinese markets, that 
we don't dare challenge China on human rights in cases like Sandy's. 
With China's kidnapping of foreign citizens in Thailand and Hong Kong, 
the televising of forced confessions of foreign citizens on Chinese 
television, detention of many American businesspeople in China over 
business disputes, and Sandy's treatment by China State security, China 
seems to feel that they can get away with anything. If we continue to 
remain quiet, they will have been proven right.
    Just before China was admitted to the WTO (over the space of about 
5 months in late 2000 and early 2001) China State Security seized 4 
different US residents who had either US citizenship or permanent 
residency and accused them of spying. The detainees were all academics, 
and there was never any credible evidence presented against them. The 
Chinese government was met with strong public condemnation from the 
State Department, President Bush, and both chambers of the US Congress. 
Within about 5 months, all four were released. Now Sandy Phan-Gillis 
faces a charge of spying for the FBI, with no credible evidence against 
her. She has been arbitrarily detained, deprived of her rights, 
subjected to solitary confinement and torture, and held for 2 years 
without so much as a hearing in front of a judge, let alone a trial. 
Where is the outrage, where is the action, and where are the 
consequences for China? When it comes to human rights in China, has 
China's admission to the WTO changed China for the better, or has it 
changed America for the worse?
    Thank you for your interest in Sandy's case, and for the 
opportunity to speak with you today.

                                SaveSandy               
                                www.SaveSandy.org

                                P.O. Box 31160           Houston, TX 
                                77231

                                713-819-9113            Email: 
                                <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e272028210e1d2f382b1d2f202a3760213c29">[email&#160;protected]</a>

                                Facebook: SaveSandyP     Twitter: 
                                @Save_Sandy
                                 ______
                                 

                Prepared Statement of Sophie Richardson

                             march 1, 2017
    Chairman Rubio, Co-chairman Smith, members of the Commission,
    First, many thanks for your leadership on and concern about human 
rights abuses in China, and your support to human rights defenders.
    As my fellow witnesses have detailed, China has indeed broken the 
human rights promises it made in exchange for WTO membership. When it 
joined, Beijing committed to greater respect for the rule of law, 
openness, and adherence to international standards. But since that 
time, and particularly since the beginning of President Xi Jinping's 
tenure in March 2013, the Chinese government has:

        <bullet> Not only failed to implement key legal reforms, but 
        also pursued the adoption of highly abusive policies on issues 
        ranging from cybersecurity to terrorism to NGO``management,'' 
        all of them in tension with China's human rights obligations 
        underdomestic and international law;
        <bullet> Not only failed to support peaceful civil society 
        across China--individuals and groups work on issues ranging 
        from rural literacy to constitutional reform--but instead 
        turned on that community and punished it with detentions, 
        disappearances, and torture; and Beijing has
        <bullet> Not only demonstrated bad faith in mechanisms ranging 
        from human rights dialogues to UN treaty body reviews, it is 
        also increasingly seeking to remake those instruments in ways 
        that suit Beijing's demands--thus weakening already-weak tools.

    Now, some have argued that while China may not have made progress 
on human rights, WTO accession and entry into other global trade 
regimes have brought about greater openness for business and trade. But 
if that's the case, why did 8 out of 10 respondents in AmCham's January 
2017 survey said they didn't even feel welcome in China? Why are 
businesspeople like Sandy Phan-Gillis who are working to promote trade 
detained? Presumably business associations expected over time to have 
more respect and room to operate--not to have to grapple with the kinds 
of constraints they too now face under the new Foreign NGO Management 
Law.
    Human rights abuses in China exist, and persist, in part because 
the US and others haven't insisted on holistic progress, and haven't 
imposed a price in response to them. It is now painfully clear that 
reformers in the Chinese government don't have influence, that 
arguments that China just needs more time or more exposure to the 
outside world don't hold water, and that senior Chinese officials 
patently reject the argument that respect for rights leads to 
stability. The argument that opening to trade would lead to greater 
political openness was woefully wrong, and, as a result, the world now 
faces the prospect of dealing with an aggressive, affluent, and utterly 
rights disrespecting Chinese government.
    So if China is to become the kind of viable, predictable partner or 
global player many--including us--want it to be, we need to redouble 
efforts to promote human rights there. But doing that effectively 
requires absorbing another key lesson of the past 15 years: that 
Beijing generally only responds to threats of negative consequences.
    Now, the Trump administration appears willing to be tough at least 
rhetorically on China with respect to trade, Taiwan, and the South 
China Seas. But it's not yet clear whether or how human rights fit into 
the picture.
    What can Congress do to educate the administration and help arrest 
the downward human rights spiral in China?
    First, urge the administration to publicly articulate its China 
policy, and ensure that human rights are a priority across the 
administration (not just for the State Department). We're concerned 
that the public readouts of Secretary Tillerson's first three 
interactions with Chinese officials contain no references to human 
rights. As we all know from experience, what new administrations say to 
Beijing at the outset of a relationship matters enormously. Your 
oversight in this area is critical.
    Second, ensure that failures by the Chinese government to mitigate 
human rights abuses have meaningful consequences, ideally in areas that 
matter to Beijing. For example:

        <bullet> The US can and should publicly decline to work with 
        China on corruption-related issues--a priority for Beijing--
        until the latter can show it can provide due process consistent 
        with international human rights standards. In a similar vein, 
        the next time the US becomes aware of Chinese police or 
        Communist Party officials who are in the US on tourist visas 
        but are hunting down allegedly corrupt mainland officials, 
        those people should be prosecuted--not quietly sent home with a 
        stern warning.
        <bullet> The Chinese government prefers to tolerate shallow 
        rule of law dialogues as substitutes for meaningful human 
        rights discussions; why not insist that all Chinese human 
        rights lawyers be released before scheduling any further 
        interactions with the Ministries of Justice, Public Security, 
        or State Security?
        <bullet> As Beijing seeks to expand its propaganda operations 
        worldwide rather than respect meaningful press freedom 
        anywhere, let journalists from Xinhua and People's Daily and 
        CCTV come to the US to work--but oblige them to register with 
        the Department of Justice as foreign agents.

    Third, if the US is uncomfortable with the current reality that 
stems from having pursued trade at the cost of promoting rights, it 
should now use China's need for access to the outside world, including 
its commercial and financial priorities, as forms of leverage.

        <bullet> We're of course pleased to help vigorously implement 
        the Global Magnitsky Act.
        <bullet> But why not also demand that Chinese companies 
        investing in the US and elsewhere perform human rights due 
        diligence, and demonstrate they are addressing problems or face 
        civil actions? Why not make CFIUS examinations of China more 
        visible?
        <bullet> Why not require greater transparency of investments by 
        Beijing's sovereign wealth fund, the CIC?
        <bullet> From Burma to South Africa, tactics like these have 
        helped stimulate positive change.

    Fourth, consider Commission travel to Beijing, Hong Kong, Lhasa, 
and/or Urumqi in the coming year. These kinds of visits invariably 
generate helpful attention to human rights concerns.
    Fifth, please support US engagement on China at the UN Human Rights 
Council. This is venue in which the US lead on its best China/human 
rights initiative of 2016--an unprecedented statement with 11 other 
governments, which certainly landed a punch in Beijing. We hope for a 
follow-up effort in June, and support to a robust review of China in 
2018.
    Last but not least, we'll have to ask you to do more of something 
you have always excelled at: reaching out to, highlighting, listening 
to independent voices from China, Tibet, and Xinjiang. Independent 
civil society there has endured multiple body blows in recent years, 
and the coming year--with the anniversary of Hong Kong's return to 
Chinese sovereignty, the autumn Party Congress, the beginning of 
China's next review by the UN Human Rights Council--is unlikely to be 
better. Your inviting independent voices to detail human rights abuses, 
comment on US policy, or simply share their stories is more important 
than ever to sustaining their work in these very tough times.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
         Chairman, Congressional-Executive Commission on China

                             march 1, 2017
    Good afternoon. This is a hearing of the Congressional-Executive 
Commission on China. The title of this hearing is ``The Broken Promises 
of China's WTO Accession: Reprioritizing Human Rights.''
    We will have two panels testifying today. The first panel will 
feature House Democratic Leader Nancy Pelosi and former Member of 
Congress Frank Wolf.
    The second panel will include: Michael R. Wessel President of The 
Wessel Group and a Commissioner on the U.S.-China Economic and Security 
Review Commission; James Mann, author of ``The China Fantasy'' and 
several other books on China and U.S. foreign policy; Jeff Gillis, 
Husband of American businesswoman Sandy Phan-Gillis, detained in China 
for the past two years and Sophie Richardson, China Director at Human 
Rights Watch.
    Thank you all for being here to discuss an issue that I believe has 
growing significance not simply in terms of our economy, and our 
national security but also in terms of the principles that animate our 
foreign policy.
    Last October when the CECC released its flagship Annual Report, we 
noted that December 2016 would mark 15 years since China's accession to 
the WTO. In fact this Commission was created in connection with debate 
surrounding whether or not to grant China Permanent Normal Trade 
Relations (PNTR), in response to concerns by many Members of Congress 
that granting PNTR would deprive Congress of a legislative mechanism to 
examine and debate China's human rights record every year.
    At that time proponents of normalized trade relations with the 
Chinese government argued that increased trade and economic growth 
would result in greater political liberalization, improvements in human 
rights and the expansion of rule of law.
    Some stalwart supporters of human rights, including His Holiness 
the Dalai Lama, were among those who saw the merits to this approach. 
In a May 2000 interview with Reuters, he said, in reference to China's 
WTO entry, ``I have always stressed that China should not be isolated. 
China must be brought into the mainstream of the world community.''
    Other advocates for WTO entry, and PNTR were found in more 
traditional spheres--namely the business community. Their arguments for 
passage of PNTR were naturally economically oriented, though 
interestingly, as one of our witnesses Jim Mann notes in his prepared 
testimony, rarely did advocates for PNTR--be they in the business 
community or political leaders--feel comfortable making the case on 
economics alone.
    Against this backdrop--despite the brutality that the world 
witnessed at Tiananmen Square--the notion that increased trade and 
investment would necessarily bring about greater political openness 
took root. Republican and Democrat administrations alike embraced this 
premise. It has been a bedrock of U.S.-China relations for the last 
three decades.
    And it has proven to be utterly false.
    Without question, China has experienced vast economic growth--now 
the second largest economy in the world. Chinese government officials 
rarely miss an opportunity to tout how many of China's citizens have 
been lifted out of extreme poverty as a result of this rapid economic 
growth.
    China is the largest provider of U.S. imports and one of the 
largest markets for U.S. exports. It also owns a sizeable portion of 
U.S. debt and contributes significantly to the U.S. global trade 
deficit.
    But, this growth, which has resulted in a much richer ruling 
Communist elite, has not been accompanied by greater human rights 
protections or the rule of law. Quite the opposite.
    Instead we see a China today that is more repressive and less free 
than it was at the time of WTO accession.
    Human rights lawyers are rounded up with impunity, reports of 
torture are rampant.
    Labor activists and women's rights advocates are arbitrarily 
detained; televised, coerced confessions are on the rise.
    Chinese citizens who desire to peacefully worship and live out 
their faith are viewed with suspicion and face increasing repression as 
documented in a Freedom House report released just yesterday which 
found that ``Combining both violent and nonviolent methods, the 
(Communist) Party's policies are designed to curb the rapid growth of 
religious communities and eliminate certain beliefs and practices.''
    This is true for Christians (Protestant and Catholic, Registered 
and Unregistered), Uyghur Muslims, Tibetan Buddhist, and Falun Gong 
practitioners.
    The Commission's Annual Report outlines the deteriorating 
trajectory for human rights and rule of law in China in painstaking 
detail. And, a cursory glance at the Commission's Political Prisoner 
Database reveals the very real human toll of this repression.
    So too, China is emboldened in its extraterritorial reach. It is 
chipping away at the autonomy guaranteed Hong Kong. It is collaborating 
and colluding with other authoritarian states about how best to stifle 
independent civil society.
    It has engaged in brazen cyberattacks on the U.S. government and 
U.S. commercial interests. Intellectual property theft is rampant. It 
is arbitrarily detaining American citizens--we are very pleased to have 
with us today Mr. Jeff Gillis, the husband of one such American.
    Meanwhile U.S. companies, including major household names, daily 
weigh the enticement of the Chinese market against staying true to 
their own core principles and missions. Do they curb speech to gain 
access? Do they curry favor with the authorities by sharing sensitive 
technology that can be employed by the Communist Party to further 
surveil and repress Chinese citizens?
    Does a Hollywood producer self-censor before the Chinese censors 
have a chance to, in order to gain market access for a new film? Does 
an American university, home to a Chinese-government funded Confucius 
Institute, opt not to invite the Dalai Lama to speak at their campus 
for fear of losing financial support?
    I'm afraid we know the answers to many of these questions and they 
point less toward a changed China and more toward a changed America.
    What I hope today's hearing will make clear is that if you care 
about China honoring its trade agreements, then you must care about the 
imprisoned rights lawyer seeking to foster rule of law within China. If 
you care about intellectual property theft, then you must care about 
the American businesswoman arbitrarily detained in China. If you care 
about China being a responsible stakeholder, then you must care about 
the Catholic priest in China fearfully administering the sacraments 
this Ash Wednesday.
    Much remains unknown about what type of foreign policy the new 
administration will pursue. President Trump's statements before taking 
office tended to focus more on the trade dimension of the relationship.
    Just yesterday, Secretary of State Tillerson met with Chinese State 
Councilor Yang Jiechi. The State Department's read out of the meeting 
underscored that the two discussed ``maintaining a mutually beneficial 
economic relationship between the two largest economies'' but included 
no mention of human rights concerns, no names of political prisoners.
    I hope today's hearing will underscore that any policy toward China 
that does not prioritize human rights and rule of law is shortsighted 
at best.
    Not only is there a moral imperative to prioritize these issues in 
our bilateral engagement with China, there is a strategic imperative. 
No nation that fears its own citizens and daily tramples on their most 
fundamental rights can reasonably be expected to be a responsible 
global stakeholder that abides by its international commitments and 
obligations.
    With that, let's turn to our first panel.
    Leader Pelosi and Congressman Wolf represent the left/right 
coalition that existed in Congress and among civil society 
organizations in opposition to granting China PNTR. A liberal Democrat 
from California and a conservative Republican from Virginia were united 
in their belief that it was a strategic misstep and morally 
indefensible to delink China's egregious human rights abuses from 
America's trade policy. They are a tangible reminder of the bipartisan 
nature of these issues, which is part of the DNA of this Commission and 
they are also a powerful reminder of the important role that Congress 
has to play in shaping U.S. foreign policy.
                                 ______
                                 

Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
  From New Jersey; Cochairman, Congressional-Executive Commission on 
                                 China

                             march 1, 2017
    Over the years, I have chaired 62 congressional hearings on human 
rights abuses in China.
    In 1994, the Clinton Administration de-linked Most Favored Nation 
status from human rights. Mrs. Pelosi, Mr. Wolf, and I were critical. 
By 1996, the State Department said, ``All public dissent against the 
party in government was effectively silenced by intimidation, exile, 
the imposition of prison terms, administrative detention or house 
arrest. 'No dissidents,'' the report goes on to say, ``were known to be 
active at year's end.''
    On December 8, 1999, I chaired a hearing entitled China, the WTO, 
and Human Rights and in my opening statement I asked the threshold 
question whether at that moment in history, ``bringing the PRC into a 
permanent and more privileged trading relationship with the United 
States and other WTO members will make it act more humanely toward its 
own people.''
    Tragically--and predictably--the answer was then--and now--an 
emphatic ``no.''
    At the same hearing, Charlie Wowkanech, the president of the New 
Jersey State AFLCIO testified and said, ``Chinese economic policy 
depends on maintenance of a strategy of aggressive exports and 
carefully restricted foreign access to its home market. The systematic 
violation of intemationally recognized workers' rights is a 
strategically necessary component of that policy. Chinese labor 
activists are regularly jailed,'' he testified, ``or imprisoned in 
reeducation camps for advocating free and independent trade unions, for 
protesting corruption and embezzlement, for insisting that they be paid 
the wages that they are owed, and for talking to journalists about 
working conditions in China. In January 1999, police attacked a group 
of retired factory workers in Wuhan, who were protesting unpaid wages 
and pensions. Many of the retirees were beaten.''
    A decade later, I chaired another hearing Ten Years in the WTO: Has 
China Kept Its Promises? Again, the record showed a complete failure--
promises made were not kept, and human rights violations had gotten 
worse.
    In 1991, Frank Wolf and I visited Beijing prison #1. It was just 
two years after the Tiananmen massacre and many of the protesting 
students had disappeared, were killed, or been arrested.
    I am still haunted by what we saw that day--the shaved heads and 
gaunt, hollow faces of prisoners--who gave us looks of fear and 
despair. I will never forget their emaciated bodies, dressed in rags, 
making forced labor goods for the US and other foreign markets. They 
looked more like Jewish victims of the holocaust than the other Chinese 
people we met on that trip.
    The passion to oppose unfettered trade with Communist China came 
from looking at these faces of persecution.
    My passion for human rights in China has remained strong after 
meeting women whose babies were forcibly aborted in service of the evil 
``One-Child Policy''; assisting blind rights advocate Chen Guancheng 
escape from China; and by working with the champions of democracy, 
human rights and religious freedom--Wei Jingsheng, Harry Wu, Bob Fu, 
Chai Ling, Bishop Su Zhimin, Rebiya Kadeer, Yang Jianli, the Dalai 
Lama, and so many others over the years.
    During the 1990s, many Members of Congress sought to link increased 
China trade with human rights improvements. We could not comprehend how 
US trade policy could put profits before the poor and the persecuted.
    We could not comprehend how the so-called ``realists,'' who still 
drive much of US foreign policy toward China, could argue that 
increased trade and investment would lead to political reform and human 
rights improvements.
    We know now that this was a ``fantasy'' as Mr. Mann book ``The 
China Fantasy'' described so well.
    It was a bipartisan fantasy.
    Bill Clinton predicted that trade would open China's political 
system. Chinese democracy, he said, was ``inevitable, just like when 
the Berlin Wall fell.'' George W. Bush also focused on the 
inevitability of history saying ``trade freely with China and time is 
on our side.''
    The arc of Chinese history has not bent toward justice. Just the 
opposite in fact has happened. Chinese authoritarianism proved 
remarkably resistant to reform or change.
    President Xi has presided over an extraordinary assault on the rule 
of law and civil society using repressive policies and new laws that 
threaten freedom advocates in China and challenge both U.S. interests 
and U.S.-China cooperation and goodwill. The CECC has a list of over 
1,400 known political prisoners.
    China is in a race to the bottom with North Korea for the title of 
world's worst violators of human rights. The hope that an economically 
prosperous and ``rising China'' would embrace political reform and 
human rights has been completely destroyed. It is time for a new 
approach.
    The U.S. cannot be morally neutral about human rights improvements 
in China. We cannot be silent in the face of the Chinese government's 
repression. We must show leadership and resolve because only the U.S. 
has the power and prestige to stand up to China' s intransigence.
    The new Administration should not shy away from ``shining a light'' 
on human rights problems in China--not just in private meetings but in 
public as well.
    China's leaders need to know that the United States stands for the 
freedom of expression, the freedom of religion, the rule of law, 
transparency and an end to torture as critical interests, necessary for 
better bilateral relations, and linked to the expansion of mutual 
prosperity and integrated security.
    The U.S. must not shy away from meeting with the Dalai Lama or 
other dissidents. We must use visa bans and financial sanctions on 
Chinese officials who perpetuate the worst types of human rights 
violations.
    The U.S. must also connect Internet and press freedoms as economic 
and human rights priorities. And we must demand, repeatedly and 
clearly, that the unconditional release of political prisoners is in 
the interest of better U.S.-China relations.
    It is tempting to be pessimistic about China's future and the 
future of U.S.-China relations. I am not pessimistic, but hopeful, 
because I know that constant repression has not dimmed the desires of 
the Chinese people for freedom and reform.
    I believe that someday China will be free. Someday, the people of 
China will be able to enjoy all of their God-given rights. And a nation 
of free Chinese men- and women will celebrate the prisoners from 
Beijing Prison #1. They will be honored as heroes, along with all 
others like them, who have sacrificed so much, and so long, for 
freedom.

                       Submissions for the Record

                              ----------                              


        [Reprinted from the Washington Post, September 15, 2016]

                Will China Soon Control American Movies?

                             By Frank Wolf

    Frank Wolf, a Republican from Virginia, served in the U.S. House of 
Representatives from 1981 to 2015.
    It may surprise most Americans to know that more than 140 
Tibetans--including many Buddhist monks and nuns--have set themselves 
aflame over the past five years to protest the growing abuses of their 
people. In most cases, these protesters died in an effort to raise 
global awareness of Beijing's targeted oppression, which the Dalai Lama 
has called a ``cultural genocide.''
    Last month, The Post published an important and underreported story 
about the growing abuses against the Tibetan people by the Chinese 
government, including a Tibetan woman who was found hanged--possibly by 
police--and the brutal crackdown against her family and community when 
they challenged the authorities over the lack of an investigation of 
her death.
    This article documented one of countless examples of Beijing's 
ever-increasing oppression of its people--especially ethnic and 
religious minorities targeted for raising legitimate grievances and 
examples of human rights abuses. Yet the Chinese government, thanks to 
its extreme efforts to control reporting and speech within China, has 
been able to largely block coverage of this and similar cases 
domestically.
    There is growing concern that Chinese government influence over 
Western media organizations will lead to direct censorship or pressure 
to self-censor content to Beijing's liking. This concern will only grow 
due to a surge of Chinese investment in the United States. Over the 
past five years, Chinese investment here has grown from $2 billion per 
year to an estimated $20 billion this year. This growth is significant 
given that Chinese companies are effectively controlled--whether 
through state ownership or strict direction--by Beijing.
    It should be no surprise that a major focus of China's investment 
in the United States is media companies, which produce the news and 
entertainment that so often shape our understanding of the world. One 
Chinese company, Dalian Wanda, has purchased the Hollywood movie studio 
Legendary Entertainment for $3.5 billion and is now seeking a 49 
percent stake in Paramount Pictures, as well as purchases of America's 
two largest movie theater chains: AMC and Carmike Cinemas. Wanda's goal 
is to control 20 percent of the global box office by 2020--and it may 
reach that threshold sooner. This doesn't include other Chinese 
investments in film studios, which would push the total share of 
Chinese box office control even higher.
    Why should we be concerned? By controlling the financing and 
distribution of American movies, and subjecting them to censorship to 
gain access to the Chinese market, Beijing could effectively dictate 
what is and isn't made--providing powerful control over America's 
greatest cultural exports.
    We have already seen examples of studios editing movie content to 
appease Chinese censors, such as ``Mission: Impossible III,'' 
``Skyfall,'' ``World War Z'' and the remakes of ``The Karate Kid'' and 
``Red Dawn.'' A recent report by the U.S.-China Economic and Security 
Review Commission noted that ``China views film as a component of 
social control: in a 2014 speech, President Xi [Jinping] reaffirmed Mao 
Zedong's dictate that `[Chinese] art serve politics.' Through strict 
regulations governing film content, the CCP's concerns are positioned 
above all other interests.''
    Media self-censorship in the West is already becoming a serious 
concern. Noted Chinese human rights lawyer Teng Biao wrote in a July 
op-ed in The Post about being told that an offer from the American Bar 
Association to publish his book on human rights in China was rescinded 
over concerns that it might anger Beijing. In Britain there are new 
concerns about deepening ties between Western news organizations and 
Chinese government propaganda. Earlier this year, the Daily Mail--which 
operates the world's most-visited English-language news website--
entered into a partnership with the People's Daily, which is published 
by the Chinese government.
    What will be the impact of state-controlled Chinese companies 
owning more of the Western media? Would movies like ``Seven Years in 
Tibet'' be put on ice for fear of offending major studio owners? Will 
content that portrays the U.S. military or human rights activists in a 
positive light be rejected or edited out to gain favor with Beijing's 
censors or attract Chinese investment?
    There are several steps the United States could take now to address 
these serious concerns without reducing our competitiveness for global 
investment.
    First, Congress and the Obama administration should consider 
expanding the charter for the Committee on Foreign Investment in the 
United States to cover strategic ``soft power'' sectors, allowing the 
committee to review how foreign ownership from autocratic regimes might 
restrict creative freedom.
    Second, the Foreign Agents Registration Act, originally passed in 
1939 to address concerns about Soviet and Nazi propaganda, should be 
updated to consider the role of foreign censorship and influence in 
U.S. media ownership. A Justice Department Inspector General report 
released this month called on the department to update its FARA 
enforcement strategy, specifically citing foreign media operations, 
among others, as entities that should be covered by disclosure and 
reporting requirements, as well as federal civil investigative demand 
authority.
    And finally, recent provisions in the annual defense and 
intelligence authorization bills before Congress to create an entity in 
government to monitor and respond to foreign propaganda and 
misinformation should be expanded to cover authoritarian foreign 
ownership of U.S. media.
    Following these steps can keep the United States a place where 
people aren't afraid to challenge human rights and religious freedom 
abuses--in Tibet and beyond.
                                 ______
                                 
                                 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                
                                      
             The Broken Promises of China's WTO Accession: 
                      Reprioritizing Human Rights

                             march 1, 2017

                          Witness Biographies

    Representative Nancy Pelosi, House Democratic Leader

    For more than 28 years, Democratic Leader Nancy Pelosi has been one 
of Congress' strongest champions for democracy and human rights in 
China and Tibet. Days after the Tiananmen Square Massacre in 1989, 
Pelosi introduced the Emergency Chinese Immigration Relief Act to help 
Chinese citizens seeking asylum in the United States. Two years later, 
while the Chinese Government continued its censorship and brutal 
suppression of the memory of that tragedy, Pelosi joined a bipartisan 
human rights delegation to Beijing. After eluding their official 
handlers, Pelosi and other Members of Congress went to Tiananmen 
Square, where they unfurled a banner that read ``To Those Who Died for 
Democracy in China'' and laid silk flowers on the Monument to the 
People's Heroes in honor of the democracy activists. In 2009, Pelosi 
hand delivered a letter to Chinese President Hu Jintao calling for the 
release of political prisoners. When Chinese democracy advocate Liu 
Xiaobo, a political prisoner, was awarded the Nobel Peace Prize in 
2010, Pelosi attended the Nobel Peace Prize In-Absentia Ceremony to 
celebrate his courage and bring attention to his imprisonment. In 1998, 
Pelosi, as co-chair of the Congressional Working Group on China, 
opposed the Clinton Administration and led bipartisan opposition to 
Normal Trade Relations with China. Pelosi proposed legislation that 
would connect China's Most Favored Nation status with its human rights 
record and commitment to removing trade barriers that bar U.S. products 
for its markets. Shortly after becoming a Member of Congress, Pelosi 
met His Holiness the Dalai Lama in 1987, beginning a decades-long 
friendship with the Tibetan spiritual leader. In 2007, Speaker Pelosi 
presented His Holiness with the Congressional Gold Medal, in a ceremony 
attended by President George W. Bush. The following year, Speaker 
Pelosi became the highest-ranking U.S. official to meet with His 
Holiness the Dalai Lama in Dharamsala. In November 2015, Leader Pelosi 
led the first U.S. Congressional delegation to Tibet since the 2008 
demonstrations and violence, where the delegation was able to speak 
with Tibetan university students and meet with key Chinese officials.

    Representative Frank R. Wolf, (Ret.)

    Mr. Frank R. Wolf is Distinguished Senior Fellow at the 21st 
Century Wilberforce Initiative. He was elected to Congress in 1980 and 
served Virginia's 10th District for 17 terms. Wolf authored the 
landmark International Religious Freedom Act and was the founder and 
co-chair of the bipartisan Tom Lantos Human Rights Commission. He was a 
vocal opponent of normalized trade relations with China in the years 
leading up to China's WTO accession due to persistent concerns about 
the human rights situation. In 1997, he snuck into Tibet posing as a 
tourist. Wolf's honors include the 2015 Wilson Chair in Religious 
Freedom at Baylor University, the Presidential Eleanor Roosevelt Award 
for Human Rights, and the Chuck Colson Center for Christian Worldview's 
William Wilberforce Award. He served as a CECC Commissioner from 2001-
2006 and 2011-2014.

    Michael R. Wessel, President, The Wessel Group and Commissioner, 
U.S.-China Economic and Security Review Commission

    Mr. Michael R. Wessel is an original member of the U.S.-China 
Economic and Security Review Commission. He served on the staff of 
former House Democratic Leader Richard Gephardt for more than two 
decades, leaving his position as general counsel in 1998. He currently 
serves as staff liaison to the Administration's Advisory Committee on 
Trade Policy and Negotiations as well as the Labor Advisory Committee 
to the U.S. Trade Representative and Secretary of Labor. Previously, he 
served on the U.S. Trade Deficit Review Commission which issued its 
report to Congress in 2000. Commissioner Wessel is also President of 
the Wessel Group Incorporated, a public affairs consulting firm and 
serves on the board of the Goodyear Tire and Rubber Company.

    James Mann, Johns Hopkins SAIS and author of ``The China Fantasy'' 
and other books on China and U.S. foreign policy

    Mr. James Mann is fellow in residence at Johns Hopkins University's 
School of Advanced International Studies. He spent the first three 
decades of his career as a newspaper reporter, foreign correspondent, 
and columnist, primarily for the Los Angeles Times, where he served for 
many years as Beijing bureau chief and as Washington correspondent 
specializing in America's relations with China. In 2001, he left 
newspaper work to become a full-time author. In 2007, Mann wrote The 
China Fantasy, an extended essay on America's reigning assumptions 
about China, questioning the idea that trade and investment will lead 
inevitably to political change and that China's authoritarian system 
cannot last long.

    Jeff Gillis, Ph.D., husband of American businesswoman Sandy Phan-
Gillis, detained in China for the past two years

    Mr. Jeff Gillis is a 55-year-old resident of Houston, TX. He holds 
a B.S. degree in Chemical Engineering from the University of Texas at 
Austin, and a Ph.D. in Chemical Engineering from the University of 
California, Berkeley. He has spent his career doing Engineering, 
Project Management, and Engineering Management for Exxon, Honeywell, 
and Schlumberger. He has served as an At-Large board member of the 
Sister Cities of Houston since 2012, and he served as the volunteer 
producer and manager of the Sister Cities Stage at the Houston 
International Festival from 2006-2014. His time is now spent advocating 
for the release of his wife of 14 years, Sandy Phan-Gillis, from her 
detention in China. Ms. Phan-Gillis is an American citizen who served 
as Vice President and later President of the Houston-Shenzhen Sister 
City Association for over 20 years. She was also a member of the 
Mayor's International Trade and Development Council. Ms. Phan-Gillis 
worked for decades on projects to benefit China and Houston-China 
relations until she was detained on March 19, 2015, while on a trade 
mission to China with businessmen and the Houston Mayor Pro Tem, Ed 
Gonzalez.

    Sophie Richardson, Ph.D., China Director, Human Rights Watch

    Ms. Sophie Richardson serves as the China director at Human Rights 
Watch. A graduate of the University of Virginia, the Hopkins-Nanjing 
Program, and Oberlin College, She is the author of numerous articles on 
domestic Chinese political reform, democratization, and human rights in 
Cambodia, China, Indonesia, Hong Kong, the Philippines, and Vietnam. 
She has testified before the European Parliament and the U.S. Senate 
and House of Representatives. She has provided commentary to the BBC, 
CNN, the Far Eastern Economic Review, Foreign Policy, National Public 
Radio, the New York Times, the Wall Street Journal, and the Washington 
Post. Dr. Richardson is the author of ``China, Cambodia, and the Five 
Principles of Peaceful Coexistence'' (Columbia University Press, Dec. 
2009), an in-depth examination of China's foreign policy since the 1954 
Geneva Conference, including rare interviews with policymakers.

                                 [all]
                                 
                                 
                                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
